<html>
<title> - PROPOSED BUDGET FOR THE DEPARTMENT OF THE INTERIOR</title>
<body><pre>[Senate Hearing 111-398]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-398
 
           PROPOSED BUDGET FOR THE DEPARTMENT OF THE INTERIOR

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   TO

             CONSIDER THE PRESIDENT'S PROPOSED BUDGET FOR 
          FISCAL YEAR 2011 FOR THE DEPARTMENT OF THE INTERIOR

                               __________

                             MARCH 3, 2010


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
56-244                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Blumenshine, Joyce, Committee Chair, Illinois Cahpter Sierra Club 
  Mining Issues, Peoria, IL......................................    45
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     4
Salazar, Hon. Ken, Secretary, Department of the Interior.........     5

                                APPENDIX

Responses to additional questions................................    47


           PROPOSED BUDGET FOR THE DEPARTMENT OF THE INTERIOR

                              ----------                              


                        WEDNESDAY, MARCH 3, 2010

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. OK, why don't we get started here. This 
morning we're reviewing the President's proposed budget for the 
Department of the Interior. We welcome Secretary Salazar back 
to the committee and look forward to hearing from him in just a 
few minutes.
    It appears to me that the administration's proposal for the 
Department of the Interior is reasonable. For the 20ll fiscal 
year, the President is requesting discretionary spending of 
$12.2 billion for the Department of the Interior. This is 
slightly less than the amount appropriated during the current 
year. However, the President's proposal is almost 14 percent 
higher than what was proposed for the department 2 years ago. 
In my view, this reflects well on the priorities of the 
administration.
    The proposed budget includes funding increases for the Land 
and Water Conservation Fund, for renewable energy projects, and 
for climate change adaptation. I am also glad the budget seeks 
to address the issue of obtaining a fair return to the taxpayer 
for the development of publicly held energy resources.
    In my view, the budget for water programs at the Bureau of 
Reclamation and the USGS, the Geological Survey, reflects a 
renewed commitment to addressing our water resource challenges 
and establishing water management as a priority.
    The administration's WaterSMART program will help address 
water supply shortages and minimize water use conflicts while 
implementing many of the goals of the Secure Water Act which 
Congress enacted last year.
    I am glad that there is an increased recognition of the 
connection between energy conservation and water conservation, 
and I encourage the administration to continue to recognize 
that sound energy policies must take into account water supply 
realities.
    One issue I focus on almost each year at this budget 
hearing is the Land and Water Conservation Fund, which is 
credited with $900 million each year from Outer Continental 
Shelf oil and gas leasing revenues. There are 2 authorized uses 
for the Land and Water Conservation Fund--Federal land 
acquisition projects and a State grant program.
    While I appreciate the increased funding proposed for 
Federal land acquisition, it appears a significant portion of 
the increased amount is proposed for BLM acquisition of wild 
horse holding facilities. I am concerned the budget continues 
to fund other programs out of the Land and Water Conservation 
Fund, however meritorious they may be--such as the Forest 
Legacy program and the Cooperative Endangered Species 
Conservation Fund--these are not authorized uses of the Fund. 
So, I'd like to explore some of these issues in more detail 
after the Secretary makes his statement. However, of course, 
before we hear from the Secretary, let me defer to recognize 
Senator Murkowski for her comments.
    [The prepared statement of Senator Landrieu follows:]

    Prepared Statement of Hon. Mary L. Landrieu, U.S. Senator From 
                               Louisiana

                      WILD HORSE AND BURRO PROGRAM

    As most of us are aware, the 1971 Wild Free Roaming Horses and 
Burro Act set aside 53 million acres in 10 Western states to protect 
wild horses and burros from capture, harassment or death. At the time 
of the Act, the wild horse population was about 25,000, down from over 
1 million wild horses at the turn of the century. The decline in 
population is attributed to profiteers who would capture wild horses 
and sell them for commercial purposes, most notably, dog food.
    To stop this cruel process, a woman named Velma Johnson, or Wild 
Horse Annie, started a grassroots campaign to protect these historic 
animals. She wrote a book, ``The Last of the Mustangs'' to tell the 
important tale of wild horses and their contribution to this country.
    She succeeded in getting two laws passed, the first in 1959 and the 
second in 1971. Many believed the 1971 Act would save and protect the 
wild horse population, but I think most would agree that the program 
has been mismanaged over the past 29 years, which is why the program 
currently finds itself in such dire straits.

I. Program is Broken--We both Agree on that
    Mr. Secretary, you have acknowledged that the Wild Horse and Burro 
Program is broken and needs repair. In fact in many of your statements 
you have said, ``the current path of the program is not sustainable for 
the animals, the environment, or the taxpayer. ``
    The current BLM management of the program does not include on-range 
management of the horses. The prevailing management tool of the BLM is 
to wait until the populations become too numerous and then round-up and 
remove excess horses and put them in short-term and long-term holding 
facilities that cost the taxpayer millions of dollars--over $29 million 
in FY09. The BLM currently has 32,000 horses in off-range facilities, 
which is almost as many as the 37,000 they estimate are on the ranges.
    Furthermore, 19 million acres have been removed from the Wild Horse 
and Burro Program, which only exacerbates the problem of overcrowding 
on public lands. Why these acres have been removed when they were 
specifically set aside for these animals is a question Congress has 
asked several times, yet, still does not have an official response from 
the BLM.

II. Need overhaul of program to avoid breaking taxpayers piggybank
    With the sustained mismanagement--or should I say non-existent on-
range management--of the program, it is time for a major overhaul or it 
will continue to break the taxpayers' piggybank.
    The program in FY07 cost $36.4 million. In FY09 it cost $51.6 
million. In FY10 it is estimated that the program will cost $66.1 
million. The increases in the program's costs are solely to pay for the 
short-term and long-term holding facilities that the BLM contracts out 
to individuals who hold the animals for the Federal government. In 
FY08, the cost of these facilities exceeded $27 million, or three-
fourths of the program's budget!
    And it will only get worse. Recently the BLM rounded up over 1,922 
horses at the Calico range in Nevada. The round-up cost over $1 million 
dollars and at either $5.75 per day at short-term holding or $1.30 a 
day at long-term holding, removal of these horses alone will cost the 
American taxpayer this year alone between $2 and $5 million. This is 
unsustainable!
    However, a recent economic study by the Humane Society estimates 
that we can save $9.4 million over 12 years if the BLM would use 
fertility treatments on the mares and return them to the Calico 
complex. If BLM adopted this policy program-wide, it would save $204 
million over 12 years. Managing the wild horses on the range, instead 
of continuing the status quo with this round-up and removal mentality, 
will save the taxpayers millions of dollars.

III. Don't agree with proposed plan
    While I appreciate the Secretary's acknowledgement that the program 
is broken and his willingness to develop an initiative to fix it, I 
have to politely disagree on the fundamentals of his proposal.
    Mr. Secretary, you want to spend $42 million of taxpayers' money to 
purchase lands in the Midwest or East to establish a sanctuary where 
excess wild horses can be removed and relocated. Why would we waste $42 
million of taxpayers' money when the BLM manages over 253 million acres 
in the West and has removed 22 million acres from the program?
    And if public acres in the West cannot accommodate the wild horses 
that have been removed, then private individuals have offered to 
purchase private lands to establish a wild horse sanctuary where these 
horses can relocate. This would save the taxpayer over $42 million 
alone by avoiding the land purchase cost.
    I am supportive of the Secretary's proposal to create special 
designations for treasured herds, such as the Pryor Mountain herd, but 
I need to know more information about how these designations will occur 
and what impact, if any, it will have on the other herds that are not 
designated as ``treasured herds.''
    There is a lot of work necessary to fix this broken program. I 
sincerely believe the BLM's management of the program has led to the 
program's current state and unless the BLM overhauls the program and 
begins to manage horses on the range, in a more efficient, cost-
effective manner, the BLM will continue to ask for millions of dollars 
to hold wild horses at off-range facilities. This is not in the true 
spirit of the Act and I know we can do better to protect not only the 
wild horses and burros, but also the environment and the taxpayer.

                           OIL AND GAS TAXES

    Once again, the Administration has proposed to eliminate several 
oil and gas tax incentives expected to generate $31.5 billion over 5 
years. I know Secretary Salazar that you do not set the tax code, but 
if the President's tax proposal becomes law, it would undermine the 
ability of the Department of Interior to run an effective minerals 
program using domestic resources.
    We have been advised by highly credible energy producers that 
elimination of these tax provisions targeted by the Administration 
would dramatically reduce domestic drilling activity. This would have 
the effect of costing thousands of U.S. jobs, increasing imports of oil 
and gas from unstable portions of the world and possibly raising prices 
paid by American consumers should our foreign suppliers use their 
increased market share to drive up prices.
    The impact on jobs would be disastrous. For example, an independent 
producer working out of the Haynesville Shale area told me yesterday 
that if this proposal goes through, it will immediately cause 25-40 
percent of his operations to cease. Put another way, there were 48,000 
wells that were drilled last year. The President's tax proposal would 
eliminate the ability to drill 12,000 wells, or eliminate one-fourth of 
the industry. That's jobs, from geologists to derrick hands, that will 
add to the current 9.7 percent unemployment rate.
    Additionally, by eliminating these tax provisions, we would 
essentially drive up the cost of clean-burning natural gas--which is a 
critical ``bridge fuel'' as we transition to a clean energy future.
    It could also create volatility in the natural gas market, which 
during this very cold winter, is not something that would help reduce 
our constituents' heating bills.
    Again, Secretary Salazar, I know you are not charged with setting 
the tax code, but the President's proposal runs counter to promoting 
domestic oil and gas production and does not achieve our domestic 
energy security goals. I urge the Administration to reconsider its oil 
and gas tax proposal.
    That concluded my remarks, thank you.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    Secretary Salazar, welcome back to the committee, always 
good to have you here. I have long appreciated the opportunity 
to serve with you when you were here and truly regard you as a 
friend and one that I know has the best interests of America at 
heart as you define your policy on our public lands.
    But I do have to be candid, and we had an opportunity to 
discuss some of these issues, but there have been some recent 
actions by the Department of the Interior in this past year 
that have not been good for the State of Alaska, or for 
Alaskans who depend on natural resources to make their living, 
and I would like to take a moment this morning to mention some 
of those recent decisions.
    On February 5, the Army Corps of Engineers denied Conoco-
Phillips a permit to construct a bridge across a river to gain 
access to what would have been the first oil and gas well in 
Alaska's National Petroleum Reserve, the NPRA, insisting that 
the company instead use aircraft to fly in all of the heavy 
equipment, the building blocks, and construct the pipelines 
underneath the river to transport oil and gas back outside the 
petroleum reserve. This was done based on the findings of the 
Department's Fish and Wildlife Service and the EPA.
    Mr. Secretary, we talked about this. For decades, those who 
have opposed us on developing ANWAR or Alaska's offshore fields 
have continuously cited the 23-million acre NPRA as the area 
where development should occur, instead. But if a producer 
can't get across the Colville River, NPRA's resources are 
effectively off limits.
    I remain very disappointed, I'm actually amazed by what I 
consider to be a short-sighted decision. It ignores that 
economics of future energy development in all of Northern 
Alaska.
    I know that this kind of compromised development could work 
in ANWAR because the soil--when I talk about the compromised 
development, I'm talking about the directional drilling--
because in ANWAR that oil is concentrated in the northwest 
corner. But the same can't be said for the smaller and widely 
distributed deposits in the NPRA. It's 23 million acres of 
Federal oil and gas lands, and developing that expanse is going 
to require at least some minimal infrastructure.
    So, I would like to understand the thought process behind 
this decision to deny these bridges and why that decision was 
made.
    Mr. Secretary, the Department's budget proposal also 
includes a number of fees or royalty increases on the very 
people who are trying to develop domestic oil and gas fields, 
to say nothing of the administration's litany of new taxes 
proposed on the industry. This country needs to retain an oil 
industry to keep us from being 100 percent dependent on foreign 
oil, but by all indications, this budget is seeking to make 
that industry uneconomical.
    Now, I know that some think that you can force America to 
go green by shutting down domestic oil and gas exploration and 
operations. Some think that by cutting off funding to the 
programs that facilitate coal mining, that somehow is going to 
help. Just because America produces less energy goes not mean 
that we are going to necessarily consume less. In fact, we're 
probably going to consume significant quantities of oil, 
natural gas, and coal for a long time to come. I think it's in 
our best interest in terms of our economy, our security, and 
the environment to produce as much of those resources as 
possible here at home.
    I would like to reiterate what I stated last week, America 
is dangerously reliant on foreign oil, and restricting access 
to even more of our domestic resources is simply unacceptable, 
and it won't solve the problem.
    I would also like to mention that the level of funding for 
the Land and Water Conservation Trust Fund that is included in 
the budget. The current maintenance backlog remains above $8 
billion despite the Stimulus funds and lat year's 
appropriations. The budget recommends $106 million increase in 
Land and Water Conservation Funding this year, and that follows 
a 30-percent increase from last year.
    Rather than increasing the Land and Water Conservation 
Funding in order to obtain more Federal property, DOI should 
focus on the lands and the property currently in its 
possession. I think we need to ask the question, how we can we 
afford to purchase new Federal lands when we can't seem to 
maintain the lands that we currently have entrusted in the 
Department to manage?
    Third, the Chairman has mentioned the budget for the Bureau 
of Land Management's wild horse and burro program. In this 
budget, it is now larger than the combined budgets for BLM's 
wildlife, fisheries, and endangered species programs. The 
proposal is suggesting shifting more wild horse herds to 
preserves in the east and the upper Midwest, while failing to 
control the population growth in the existing wild horse and 
burrow herds. I'm concerned about where this plan is taking us.
    Finally, Mr. Secretary, I would hope that this morning you 
describe your treasured landscapes proposal, perhaps, more 
completely than the budget documents. I'm unclear as to what 
these treasured landscapes are, where they're going to be 
located, why they need further protection and when you'll be 
making the legislative proposal for the Authority to protect 
them and how they are protected.
    I think the actions of the Department of the Interior over 
the last year have raised some concerns with the Western 
Senators. I hope you will understand why we oppose many of the 
budget proposals that are before us, but I do look forward to 
working with you on some of these aspects.
    With that, Mr. Chairman, I conclude my remarks.
    The Chairman. Thank you very much.
    Secretary Salazar, why don't you go right ahead with your 
statement? We're glad to have you here.

  STATEMENT OF HON. KEN SALAZAR, SECRETARY, DEPARTMENT OF THE 
                            INTERIOR

    Secretary Salazar. Thank you very much, Chairman Bingaman 
and Ranking Member Murkowski and thank you to my good friends, 
as well, Senator Bennett, Senator Wyden, and Senator Johnson.
    With me today here at the witness table are Deputy 
Secretary of the Interior, David Hayes, and the Budget Director 
for the Department, Pam Haze. Behind me is Rhea Suh, who is the 
Assistant Director of Policy and management.
    Senator Shaheen, it's good to see you this morning, as 
well.
    So, thank you all for being here.
    Let me first say that I want to, at the outset, just 
acknowledge that we are working on some tough issues, but we 
have a great team of people at the Department of the Interior 
that we've recruited. One of those people passed away just 
about a week ago, the Director of the U.S. Fish and Wildlife 
Service, Sam Hamilton, a 30-year employee who was actually 
introduced here for his confirmation proceedings by Senator 
Thad Cochran.
    I never asked Sam whether he was a Democrat or a 
Republican. All I knew is that he was beloved by a lot of 
people because of his work in helping move forward the 
conservation agenda and trying to bring together people to 
develop consensus on how we move forward.
    Sam was 54 and he will be missed as we move forward in 
trying to deal with what are some very, very difficult issues 
in the endangered species arena and we delve forward--and we 
move forward with making sure that we're protecting our 
wildlife for hunters and anglers as well as for the non-
consumptive uses of wildlife.
    But the work goes on. The budget that we are presenting to 
you today--the budget that is being presented, the President's 
budget to the Congress--is a budget of tough choices in tough 
times. You all are very much a part of the dialog going on in 
this country about trying to get an economy that had gotten to 
the point of a near depression back on track, and that 
obviously is reflected in the real tough choices in budget 
which the President and the Department have presented, here, to 
the Congress.
    The budget, overall, has $750 million in cuts and 
efficiencies, and it includes cuts in travel, where we are 
going line by line and making sure that when people travel, 
they're traveling because it's necessary to travel. Cuts in 
information technology and cuts where we are essentially 
absorbing the fixed costs for the Department of the Interior.
    Those cuts, in essence, just the fixed costs part of what 
we are absorbing within the Department would have a staff 
equivalency of about 1,300 FTE. So, in that context, I just 
want you to know that this is a tough budget, but one that we 
believe will continue if supported by this Congress to allow us 
to move forward of achieving the mission of the Department of 
the Interior.
    The mission of the Department of the Interior is--in my 
mind today and in the mind of people who I cherish in this 
chamber, people like Senator Inouye--a very important, but a 
very profound mission for this country. That mission is to 
protect the natural resources of America and to protect the 
heritage of this country. We work on that mission every day 
with the 70,000 employees and with the different agencies of my 
Department.
    That mission is also a very important one for the economy 
of the United States. We support about 1.4 million jobs a year 
that are created through the Department of the Interior through 
programs and everything from our national parks, to our 
wildlife refuges to oil and gas activity. We generate activity 
here in this country that equates to about $367 billion in 
economic activity. We have over--hello, Senator Stabenow--we 
have over 400 million visitors that come to visit the historic 
sites and the national parks and the wildlife refuges and the 
BLM landscapes across our country. All of that is a very 
significant contribution to the economy of America. So, we're 
proud of the work that we do at Interior to help our economy 
move forward.
    I want to briefly review a few of the major initiatives and 
work of the Department. First, with respect to energy, we're 
moving forward with both a conventional energy program, both on 
the onshore as well as on the offshore. We needed to have a 
robust program in the development of oil and gas for 2010 and--
2009-2010 and we expect that we'll continue to do the same 
thing in 2011.
    We also have chartered a new way forward with respect to 
renewable energy on our public lands and are looking, in the 
budget that is before you, to stand up some 9,000 megawatts of 
renewable energy power on our public lands. At the same time, 
we hope that in the year ahead you will see significant 
progress in the standing up of offshore wind in the--especially 
in the Atlantic area for there is significant interest on the 
part of those States to move forward with a new generation of 
energy from the wind that blows in the Atlantic. So, we will 
continue to move forward with both conventional energy as well 
as with renewable energy as part of the mission of our 
Department.
    We also, as reflected in this budget, have tried to put a 
spotlight on the issues of climate change, as you know, Senator 
Murkowski, being in the place that is really ground zero of the 
effects that we see from climate change. Those are the effects 
that I see as the Nation's land manager on the ground all the 
time. When I'm at Glacier with people like Senator Baucus and 
Senator Tester, and the experts there are telling us that the 
glaciers will no longer be there at Glacier National Park by 
the time that we get to 2020. It is of concern to me.
    Or when I am at the Apostle Islands in the Great Lakes in 
Wisconsin, and I am told that the temperatures at the Apostle 
Islands are now 5 degrees warmer than they were 5 years ago.
    Or in the great Southwest, which is so important to you, 
Chairman Bingaman. We know the water wars have been fought for 
the last 100 years on the Colorado River Basin. The water 
managers and the scientists are telling us--and Senator 
Bennett, in your State, as well, since you're one of the 
members of the Colorado River Basin--we are looking at a 20 
percent reduction in the water supply for thee Colorado River. 
When you have that kind of a reduction in water supply because 
of changes in precipitation patterns, compounded upon the fact 
that when these compounds were entered into back in the 1920s, 
there was a miscalculation in the amount of water available for 
division among the different States. We're looking at some 
major problems ahead of us because of the challenges of climate 
change.
    So, we do move forward with initiatives on climate change, 
which include the creation of climate change science centers. 
The first one we will be announcing which hopefully will be in 
Alaska, at the University of Alaska later on this week, and 
we'll move forward and try to develop these climate change 
centers so we can get on top of these issues around the 
country.
    We also, under Sam Hamilton's leadership, had unfolded an 
initiative to create landscape conservation cooperatives to see 
how, on the ground, we could adapt to the changes in climate in 
a cooperative way if we're working with local governments, 
State governments and private landowners so that everybody can 
have available to them the best science and information on land 
management issues.
    Water issues, Chairman Bingaman, I appreciate the support 
that you and this committee have given us with respect to Title 
XVI and other water conservation initiatives and the support 
that you're giving us for the WaterSMART strategy. We know that 
especially in the west and now more--even more pronounced, I 
think, around the entire country people are recognizing that 
water really is the lifeblood of our communities and that we 
need to do a lot more with respect to how we protect that very 
precious resource.
    On the Treasured Landscapes agenda, Senator Murkowski 
raised a question about that. We need to do work, in my view, 
to do what President Roosevelt did now over 100 years ago where 
he did move forward to develop a conservation agenda, which has 
become a legacy of the United States of America which makes us 
a singular Nation in terms of what we have done with 
conservation. So, it is our view that it is important for us, 
as a Department, to work with people like Governor Gary Herbert 
from Utah to come up with places where we can, in fact, working 
together in partnership with the State and local governments, 
find places that we can, in fact, conserve given the realities 
of the challenges that we face here in the 21st century, 
including the following.
    The fact is, we lose about 2 million acres of land every 
year to development in the United States of America. The fact 
is that we are seeing declines in many of the species which 
have been part of our wildlife. We have sportsmen and anglers 
who are concerned about what is happening with conservation 
around the world, so our Treasured Landscapes agenda is 
responsive to that great need that I think the American citizen 
we have seen since the days of President Roosevelt over 100 
years ago.
    So, the increases in the Land and Water Conservation Fund 
are intended to be a part of moving that conservation agenda 
forward.
    Finally, with respect to 2 sets of very important 
initiatives--the first is Native Americans--we, in the 
Department of the Interior and each of your states, I think, 
including Senator Lincoln's State--good morning--we oversee and 
have a trust relationship on behalf of the United States of 
America which is a Nation-to-Nation relationship with 564 
tribes across this country. We also have a special relationship 
with Alaska natives. It's important that we do everything that 
we can to help honor that relationship.
    We are aware of the fact that in Native American country 
across the United States we have huge, and very difficult 
issues. We have crime rates which are absolutely horrendous, 
and law enforcement issues that we need to deal with. We have 
economic development issues where we are trying to respond to 
Depression-era kinds of statistics where you have 50 percent 
unemployment rates on many reservations around this country and 
we're trying to be responsive to that. We have other issues, 
such as healthcare issues, which we're working on with our 
colleagues in HHS and others have tried to be responsive to, 
and we have issues in education because the Department of the 
Interior in--part of the job that I didn't understand was going 
to be given to me is I'm the superintendent of a school system 
that has 42,000 young Native Americans who get their first 
education in our schools.
    So, working with--under the leadership of Assistant 
Secretary Larry Eckhart and his team, we are attempting to do a 
number of different things in the Native American world.
    Finally, we hope that through the support of the Congress, 
we'll continue to build on our programs that reach out to young 
people across the United States. There is, in fact, a reality 
that should concern us all, that people are spending so much 
more time in front of televisions, our young people, 
televisions and computers than they are in the outdoors. Six 
hours in front of televisions and computers every day, while 
they spend 4 minutes a day in the outdoors, on average. So 
we're trying to be responsive to connect young people to the 
outdoors. We bring in millions of people into our National 
Parks and our wildlife refuge, our BLM land, and we want to 
continue to do that as we provide education to these young 
people. But we also want to provide job opportunities for young 
people to come and get their first jobs, very similar to the 
Youth Conservation Corps, the Public Land Corp and other things 
which all of you have supported. It is our goal under this 
budget to double the number of young people who are working 
with us and getting a paycheck, that will take us--which will 
more than double the number of young people who have been 
employed at the Department of the Interior. In my view, it is a 
creation of the next generation of people who will work at the 
Department, and people who will be the conservation leaders in 
the next generation.
    So, with that, Mr. Chairman, I'd be happy to take 
questions.
    [The prepared statement of Secretary Salazar follows:]

 Prepared Statement of Hon. Ken Salazar, Secretary, Department of the 
                                Interior

    Mr. Chairman and members of the Committee, I am pleased to be here 
today to present the details of the 2011 budget request for the 
Department of the Interior. I want to thank the Chairman and the 
Members of this Committee for your support of our Department and 
ongoing reforms that are important to the stewardship of the Nation's 
natural and cultural resources and to fulfilling our trust 
responsibilities to American Indians and Alaska Natives. Your support 
for Interior's programs is helping us to build a strong foundation to 
achieve a clean energy future, tackle climate change impacts, conserve 
our treasured landscapes, and empower tribal communities. I look 
forward to working closely with you to continue to advance these 
priorities.

                              INTRODUCTION

    I am honored to serve as the 50th Secretary of the Interior and to 
oversee this Department and its vast domain. Our mission is as simple 
as it is profound. We protect America's natural resources and cultural 
heritage. Our land and community-based programs touch the lives of most 
Americans, including 1.7 million American Indians and Alaska Natives.
    Interior manages 500 million acres or about one in every five acres 
in the United States, including 392 national park units, 551 wildlife 
refuges, the 27 million-acre National Landscape Conservation System, 
and other public lands. These places are treasured landscapes. They 
provide us with scenic landscapes, recreational opportunities and they 
tell our history and our varied culture. They serve as economic engines 
for tourism and growth opportunities for recreation, drawing visitors 
and supporting jobs and businesses in surrounding communities.
    The Department's public lands and 1.7 billion acres on the Outer 
Continental Shelf supply nearly one-third of the nation's domestic 
energy production. These resources are vital to the Nation's energy 
security and provide economic returns to the Nation. In addition, the 
mineral and timber resources that are from the public lands support 
industry, help to pave our roads, and build our homes.
    The Department of the Interior's people, programs, and information 
have an impact on all Americans. Interior recently analyzed the 
economic impacts of its programs and activities, and estimates that the 
Department generates the following in economic benefits: The Department 
supports over 1.3 million jobs and over $370 billion in economic 
activity. Parks, refuges, and monuments generate over $24 billion from 
recreation and tourism. Conventional and renewable energy produced on 
Interior lands and waters results in $292 billion in economic benefits 
and the water managed by Interior supports over $25 billion in 
agriculture.
    The Department fulfills its special responsibilities to American 
Indians and Alaska Natives, managing one of the largest land trusts in 
the world including over 55 million surface acres and 57 million acres 
of subsurface mineral estates held in trust for Indian Tribes and 
Individual Indians, over $3.6 billion of funds held in over 2,700 trust 
accounts for approximately 250 Indian Tribes, and over 380,000 open 
Individual Indian Money accounts. The Bureau of Indian Education school 
system provides services to approximately 42,000 students in 23 States 
attending 183 elementary and secondary schools and supports 30 tribally 
controlled community colleges, universities, and post-secondary 
schools.
    The Department of the Interior is truly the Department of America. 
We are uniquely positioned to provide enduring benefits to the American 
people. We will invest the resources included in the 2011 budget and 
make wise and prudent investments that will allow us to maximize 
opportunities to realize the potential of our lands and waters, 
resources, and people.

                             THE FIRST YEAR

    In January 2010, I celebrated my first anniversary as Secretary of 
the Interior by recognizing the achievements of Interior's 70,000 
employees, including:


  <bullet> Restoring the Everglades--beginning construction of the one-
        mile bridge on the Tamiami Trail and breaking ground on the 
        Picayune Strand Restoration project in the Everglades in 
        Florida--to restore water flows and revive 55,000 acres of 
        wetlands for wildlife habitat;
  <bullet> Negotiating a settlement of the long-running and highly 
        contentious Cobell v. Salazar class-action lawsuit--resolving 
        trust accounting and management issues after 14 years;
  <bullet> Advancing renewable energy development--establishing 
        renewable energy coordination offices in four States and teams 
        in six States to facilitate renewable energy production on 
        public lands and issuing four exploratory leases for renewable 
        wind energy production on the OCS;
  <bullet> Moving forward to invest $3.0 billion available from the 
        American Reinvestment and Recovery Act in facility renovation 
        and energy efficiencies, habitat restoration, increasing water 
        supplies and water conservation, supporting renewable energy 
        development, and reducing human hazards;
  <bullet> Restoring confidence and accountability in our energy 
        programs by beginning an orderly termination of the Royalty-in-
        Kind program and reforming the management of onshore oil and 
        gas resources;
  <bullet> Coming to the aid of drought-stricken California with 
        emergency aid and infrastructure investments;
  <bullet> Expanding opportunities for youth--employing 8,200 young 
        adults in 2009;
  <bullet> Opening the crown of the Statue of Liberty for public 
        access--the crown has been closed to the public since 9/11;
  <bullet> Ending a stalemate at the Flight 93 National Memorial--
        completing the acquisition of land in cooperation with willing 
        sellers and clearing the way for construction of a memorial to 
        honor the Nation's heroes;
  <bullet> Delisting the brown pelican--a case of complete recovery for 
        a species that was first listed as endangered in 1970;
  <bullet> Increasing transparency--reversing and withdrawing flawed 
        oil and gas leases with potential impacts to national parks in 
        Utah and oil shale research, development, and demonstration 
        leases that may have shortchanged taxpayers; and
  <bullet> Helping to negotiate a collaborative solution that would end 
        decades of conflict and potentially allow for the restoration 
        of the Klamath River Basin in California and Oregon.

                      OVERVIEW OF THE 2011 BUDGET

    Interior's 2011 budget reflects an aggressive agenda in the context 
of challenging fiscal times. The 2011 Interior budget request for 
current appropriations is $12.2 billion, $38.7 million or 0.3 percent 
below the level enacted by Congress for 2010. Permanent funding that 
becomes available as a result of existing legislation without further 
action by the Congress will provide an additional $5.8 billion, for 
budget authority totaling $18.0 billion for Interior in 2011.
    Within this amount, the budget proposes investments for high 
priority goals and initiatives. With the 2011 budget, the Department 
will:

  <bullet> Implement a comprehensive New Energy Frontier strategy that 
        creates jobs, reduces the Nation's dependence on foreign oil, 
        and reduces environmental impacts. The budget requests an 
        increase of $27.4 million for renewable and conventional energy 
        programs.
  <bullet> Confront the realities of climate change by launching an 
        integrated strategy for Climate Change Adaptation. An increase 
        of $35.4 million is requested to implement the Department's 
        integrated program.
  <bullet> Develop a 21st Century conservation agenda that protects 
        Treasured Landscapes. The 2011 budget includes increases of 
        $106.0 million for Land and Water Conservation Fund programs 
        and $71.4 million for investments in major ecosystem 
        restoration projects in the Chesapeake Bay, California's Bay 
        Delta, the Gulf Coast of Louisiana and Mississippi, and 
        Everglades.
  <bullet> Tackle the water challenges facing the Country with a new 
        strategy to Sustain and Manage America's Resources for 
        Tomorrow. The Department's WaterSMART sustainability agenda 
        includes increases of $36.4 million.
  <bullet> Engage America's Youth in Natural Resources. The budget 
        increases funding for youth programs by $9.3 million.
  <bullet> Honor trust responsibilities and Empowering Tribal Nations. 
        The budget includes targeted increases for contract support and 
        other tribal priorities.

    These increases are possible within a level budget as the 
Department is proposing $750 million in terminations, reductions, and 
management efficiencies and absorption of $108.7 million in fixed 
costs.
    The 2011 request includes $11.1 billion for programs funded in the 
Interior, Environment and Related Agencies Appropriations Act. This is 
$16.7 million, or 0.2 percent, below the level enacted for 2010. The 
2011 request for the Bureau of Reclamation and the Central Utah Project 
Completion Act, funded in the Energy and Water Development 
Appropriations Act, is $1.1 billion, $22.0 million or 2.0 percent below 
the level enacted for 2010.
    In 2011, Interior will continue an exemplary record of producing 
revenue for the U.S. Treasury. The estimate for revenue collections by 
the Department in 2011 is $14.0 billion, more than offsetting the 
budget request for current appropriations.

                          NEW ENERGY FRONTIER

    The Department of the Interior oversees one-fifth of the Nation's 
landmass and more than 1.7 billion acres of the OCS. As the steward of 
the Nation's energy and mineral estate, the Department has a leadership 
role, promoting clean energy that can reduce climate impacts, and 
responsibly developing conventional energy sources to reduce reliance 
on foreign oil.
    The New Energy Frontier initiative will create clean sources of 
energy using the Nation's vast domestic resources. The New Energy 
Frontier initiative invests $73.3 million in renewable energy programs, 
an increase of $14.2 million over 2010. The initiative includes $3.0 
million for BLM to focus on the environmental elements of renewable 
energy projects, $3.2 million for MMS region-specific planning needs, 
$3.0 million for USGS to analyze and document the effects of renewable 
energy on wildlife populations, $4.0 million for FWS to carry out 
endangered species consultation and other wildlife conservation efforts 
and provide timely environmental review of projects, and $1.0 million 
for BIA to support renewable energy development efforts on tribal 
lands.
    The Department has a High Priority Performance Goal to increase 
approved capacity for solar, wind, and geothermal energy resources on 
Interior managed lands, while ensuring full environmental review, by at 
least 9,000 megawatts by the end of 2011. This is enough energy to 
power nearly 2 million homes each year.
    The 2011 budget continues support for the development of 
conventional energy, with $460.2 million in BLM, MMS and BIA. This is a 
net increase of $13.1 million over the 2010 level. Within this 
requested level, there is an increase of $4.4 million for MMS's 2007-
2012 five year program and $10.0 million for audit costs to support the 
transition from Royalty-in-Kind to Royalty-in-Value. The 2011 budget 
increases the MMS inspection fee on OCS above-water oil and gas 
facilities by $10.0 million. A reduction of $13.0 million is proposed 
in the net BLM oil and gas program appropriation, which is offset by 
$10.0 million in new inspection fees in the onshore oil and gas 
program; the remaining $3 million reduction results from the completion 
of a legislated energy study. BIA's budget includes an increase of $1.5 
million for conventional energy leasing activities on the Fort Berthold 
Reservation, including support for a ``one-stop-shop'' to streamline 
development activities in the area.

                       CLIMATE CHANGE ADAPTATION

    Resource managers consider climate change to be the single most 
challenging issue they face. In order to equip them with the tools and 
strategies they need, Interior's Climate Change Adaptation initiative 
will investigate the causes and formulate solutions to mitigate climate 
impacts to lands, waters, natural and cultural resources. As the pre-
eminent manager of lands and resources, Interior will leverage its 
experience and expertise in partnership with other governmental and 
non-governmental entities. Interior's Climate Science Centers and 
Landscape Conservation Cooperatives will conduct and communicate 
research and monitoring to improve understanding and forecasting for 
those natural and cultural heritage resources that are most vulnerable 
to climate change impacts.
    The Department's High Priority Performance Goal for Climate Change 
Adaptation is to identify areas and species most vulnerable to climate 
change and begin implementing comprehensive adaptation strategies by 
the end of 2011.
    The 2011 budget includes $171.3 million for the Climate Change 
Adaptation Initiative, an increase of $35.4 million over 2010. This 
includes continued investments in the USGS National Climate Change and 
Wildlife Science Center ($8.0 million), which will serve as the nexus 
for eight Climate Change Science Centers; expansion of monitoring in 
USGS ($1.0 million) and FWS ($8.0 million) that will be integrated, 
standardized, and accessible to Interior bureaus, partners, and the 
public; expansion of the USGS carbon sequestration project by $2.0 
million; expanded science and planning capacity in FWS ($8.8 million) 
and BLM ($2.5 million) to support additional Landscape Conservation 
Cooperatives; and FWS adaptive management activities with private 
landowners ($2.0 million). Beginning with the 2011 budget, the Bureau 
of Reclamation and Bureau of Indian Affairs identify dedicated climate 
change funding, including an increase of $3.5 million for Reclamation 
basin studies and scientific support and $200,000 for BIA participation 
in an LCC.

                               WATERSMART

    The 2011 budget proposes a sustainable water strategy to assist 
local communities to stretch water supplies and improve water 
management. A High Priority Performance Goal is established to enable 
capacity to increase water supply for agricultural, municipal, 
industrial, and environmental uses in the western United States up to 
350,000 acre-feet by the end of 2011 through the Bureau of 
Reclamation's conservation programs including water reuse and recycling 
and WaterSMART (formerly challenge) grants.
    The budget for the WaterSMART program--Sustain and Manage America's 
Resources for Tomorrow--includes $72.9 million, an increase of $36.4 
million over the 2010 enacted level for sustainability programs in 
Reclamation and USGS. Reclamation will use $62.0 million, an increase 
of $27.4 million, to improve water management by encouraging voluntary 
water banks; reduce demand; implement water conservation and water 
reclamation and reuse projects; and take action to improve energy 
efficiency and reduce environmental conflicts. The USGS will use $10.9 
million, an increase of $9.0 million, for a multi-year, nationwide 
water availability and use assessment program.

                       YOUTH IN NATURAL RESOURCES

    The future of resource conservation depends upon the next 
generation's understanding of the importance of natural resources and 
cultural treasures. The 2011 budget continues the Youth in Natural 
Resources initiative which signals the Secretary's emphasis on youth 
involvement.
    The Department's High Priority Performance Goal for Youth in 
Natural Resources is, by the end of 2011, to increase by 50 percent 
from the 2009 level, the employment of youth (ages 15 to 25) in the 
conservation mission of the Department.
    The budget includes an additional $9.3 million for programs at the 
parks, refuges and other public lands. This includes $5.8 million for 
youth employment and education programs in the national park system and 
$2.0 million for youth programs at national wildlife refuges. The 
budget also includes $2.0 million for FWS and BLM to partner with the 
National Fish and Wildlife Foundation in public-private partnerships to 
engage youth through conservation projects on public and private lands. 
The total for youth programs includes an elimination of a $500,000 
earmark in the FWS Migratory Bird program. In addition, NPS has 
committed to dedicate a total of $6.4 million, $2.0 million more than 
last year, of recreation fee revenue collected at parks to youth 
projects that benefit the visitor experience.

                          TREASURED LANDSCAPES

    The 2011 budget reflects the President's agenda to protect 
America's treasured landscapes and demonstrates a sustained commitment 
to a 21st Century conservation agenda. The budget will allow Interior 
to intensify efforts to protect treasured landscapes; to participate in 
major restoration efforts to restore, protect, and preserve key 
ecosystems; and to operate and maintain landscapes.
    Interior's 2011 budget includes $445.4 million, an increase of 
$106.0 million for Interior Land and Water Conservation Fund programs 
including Federal acquisition and State grants. The budget also 
includes $288.2 million, an increase of $71.4 million targeted to key 
ecosystems for restoration and renewal--the Everglades, California's 
Bay-Delta ecosystem, the Gulf Coast of Louisiana and Mississippi, and 
the Chesapeake Bay.
    President Obama's 2011 budget protects open spaces, forests, and 
wildlife habitat by funding $619.2 million in Land and Water 
Conservation Fund programs in the Department of the Interior and USDA 
Forest Service. This is a 29 percent increase over the 2010 enacted and 
a 104 percent increase over the 2009 level. With these consecutive 
increases, appropriations from the Land and Water Conservation Fund are 
on track to reach the full funding level of $900.0 million annually by 
2014.
    The 2011 budget also includes $288.2 million for high-priority 
ecosystem restoration, an increase of $71.4 million from the 2010 
level. This includes $148.0 million that is requested as part of the 
Interior, Environment and Related Agencies appropriation, an increase 
of $25.9 million. The balance is requested in the Bureau of Reclamation 
budget. These ecosystem restoration efforts build on existing programs 
and efforts and feature the following efforts targeted for 2011 funding 
increases.
    The Department of the Interior, through the National Park Service, 
Fish and Wildlife Service, U.S. Geological Survey, and the Bureau of 
Indian Affairs, is a key player in restoring the Everglades ecosystem. 
In 2011, the budget includes $74.5 million, an increase of $6.0 million 
over the 2010 enacted level for restoration of the Everglades. This 
request includes $8.0 million for the Tamiami Trail one-mile bridge, a 
component of the Modified Waters Delivery project that is being managed 
by the Corps of Engineers.
    The 2011 budget includes an increase of $50.6 million for increased 
efforts by the Bureau of Reclamation, FWS, and USGS to conduct studies, 
projects, and other efforts in the California Bay-Delta. These 
activities will support the December 22, 2009 Bay-Delta Interim Action 
Plan, investing in short and long-term actions for sustainable water 
and ecosystem restoration. This request will fund habitat restoration 
efforts, the development of fish screens and fish ladders, efforts to 
eradicate or mitigate invasive species, various water quality and 
quantity studies and assessments, and other efforts. This includes $5.0 
million for FWS and $45.6 million in the Bureau of Reclamation budget
    The FWS owns and manages ten National Wildlife Refuges totaling 
300,000 acres along the coast of Louisiana and Mississippi. For FWS and 
NPS, there is a net funding increase of $4.8 million in 2011 to support 
the restoration of key fish and wildlife habitat along the Gulf Coast 
of Louisiana and Mississippi and enable FWS to provide its expertise to 
multi-agency projects in the area. This includes a reduction of 
$192,000 to the NPS Gulf Coast Programs.
    The Department's 2011 budget for USGS, FWS, and NPS includes $31.6 
million, an increase of $10.0 million to expand the Department's 
efforts to conserve and restore the Chesapeake Bay's cultural and 
natural resources.

                       EMPOWERING TRIBAL NATIONS

    The Empowering Tribal Nations initiative includes programs to 
advance Nation-to-Nation relationships, improve Indian education for 
students in BIE funded schools, improve the safety of Indian 
communities, and reform trust land management with an ultimate goal of 
greater self-determination. In November 2009, the White House held a 
Tribal Nations Conference, which was attended by over 400 tribal 
leaders. At the conference, the President pledged to strengthen Nation-
to-Nation relationships, improve the tribal consultation process, and 
empower strong and stable Indian communities.
    Overall, the 2011 budget request for Indian Affairs is a reduction 
of $3.6 million from the 2010 enacted amount, after excluding the $50.0 
million in one-time funding to forward-fund tribal colleges in 2010. 
Maintaining key increases for law enforcement and education programs, 
the 2011 budget request includes programmatic increases of $70.6 
million for the Empowering Tribal Nations initiative. Specifically, the 
2011 budget:


  <bullet> Advances Nation-to-Nation relationships and Indian self-
        determination by providing additional funding of $21.5 million 
        for contract support costs and the Indian Self Determination 
        Fund, $2.9 million to assist with the unique needs of small and 
        needy Tribes, and $2.0 million for social services.
  <bullet> Protects Indian Country by providing $19.0 million to 
        increase the number of Federal Bureau of Investigations agents 
        that are on-the-ground and dedicated to Indian Country.
  <bullet> Advances Indian education with $8.9 million to address 
        environmental and security concerns at BIA schools and 
        strengthen grant support funding for tribally operated BIA 
        schools.
  <bullet> Improves trust land management with increases of $11.8 
        million to promote both renewable and conventional development 
        on tribal lands, defend and assert Indian water rights, and 
        assist Tribes with dam safety.

    The Department's High Priority Performance Goal for Safe Indian 
Communities will achieve significant reductions in criminal offenses of 
at least 5 percent within 24 months on targeted tribal reservations by 
implementing a comprehensive strategy involving community policing, 
tactical deployment, and critical interagency and intergovernmental 
partnerships.
    Settlement of the Cobell Lawsuit--On December 8, 2009, the parties 
in Cobell v. Salazar announced a pending settlement of the 14-year old 
class-action lawsuit alleging the Federal Government's mismanagement of 
assets held in trust on behalf of individual Indians. Under the terms 
of the settlement, approximately $1.4 billion would be distributed to 
the class members with each member receiving $1,000 for their 
historical accounting claims and some receiving additional funds 
related to trust management claims. The second part of the settlement 
provides for a $2.0 billion fund for the purchase of fractionated land 
interests held in trust on behalf of individual Indians. In addition, 
as an added inducement to facilitate the purchase of fractionated land 
interests, up to $60.0 million of the $2.0 billion for land acquisition 
will be contributed to an existing, non-profit organization for the 
benefit of educating American Indians and Alaska Natives. On February 
12, 2010, the President transmitted to Congress a package of budget 
amendments that includes the Cobell Settlement. Final disposition of 
the settlement is pending congressional action and approval by the 
Court.

                        MANAGEMENT EFFECTIVENESS

    Wild Horse and Burro Program--The current path of the Wild Horse 
and Burro program is not sustainable for the animals, the environment, 
or the taxpayer. On October 7, 2009, I announced a new comprehensive 
long-term plan to put the wild horse and burro program on a sustainable 
track. The plan identifies three management strategies to improve the 
protection and management of wild horses:


  <bullet> Managing sustainable herds on western rangelands through the 
        aggressive application of fertility control measures.
  <bullet> Establishing new wild horse preserves, primarily in the 
        Midwest and East for horses that must be removed from western 
        rangelands.
  <bullet> Providing special designations for selected treasured herds 
        in the West.

    The 2011 BLM budget includes $75.7 million, a program increase of 
$12.0 million, for the Wild Horse and Burro Management program. The BLM 
LWCF budget includes an increase of $42.5 million to acquire land for a 
wild horse preserve. Initial costs for implementing the proposals would 
be significant as the BLM acquires preserves and works to achieve 
sustainable herd levels on public rangelands, but overall program costs 
should decline in the future. The plan will enable BLM to achieve 
appropriate management population levels on the range in the near 
future.
    Responsibly Budgeting for Wildfire--The budget responsibly budgets 
for wildfires and includes $933.9 million for Wildland Fire Management, 
an increase of $78 million. The 10-year average of suppression costs is 
fully funded. The budget proposes continuation of a regular suppression 
account and the FLAME Wildfire Suppression Reserve Fund, and includes a 
new Presidential Wildfire Contingency Reserve account. Regular 
suppression will support initial attack and predictable firefighting 
costs; the FLAME funds will be used in cases of severe, complex, and 
threatening fires and be used as a contingency reserve. The 
Presidential Contingency Reserve would require the issuance of a 
Presidential Finding when the suppression and FLAME appropriations are 
soon to be exhausted. There is a proposed program reduction of $42.6 
million in the hazardous fuels reduction program. Fire management 
resources would be used in a cost-effective manner in high priority 
areas, such as the Wildland Urban Interface to more effectively reduce 
the risk of wildfire to communities.
    Program Reductions--Consistent with the President's directive to 
freeze spending on non-security discretionary spending, we took a hard 
look at all of our programs across the Department. We found over $750 
million in program reductions for ineffective or low priority programs, 
including the elimination of one-time funding. Included within these 
reductions is $50.0 million for a one-time payment to forward-fund 
tribal colleges. This was a one-time increase in the 2010 budget to 
provide funding in advance of the academic year, and the $50.0 million 
is not needed in 2011. The budget also contains a $163.9 million 
reduction, or 34 percent, for Interior construction accounts. These 
reductions take into consideration the $3.0 billion Interior received 
through the American Recovery and Reinvestment Act. The 2011 budget 
proposes reductions of $38.4 million to terminate the Save America's 
Treasures and Preserve America programs managed by the National Park 
Service and reduces the Heritage Partnership Program grants for 
National Heritage Areas by 50 percent.
    Management Efficiency Savings--The 2011 budget assumes management 
efficiency savings throughout the Department totaling $82.1 million. 
All bureaus and program offices, including the Working Capital Fund, 
assume reductions from efficiency savings that are either bureau 
specific or are part of a Department-wide reform. The budget assumes 
$20.1 million in bureau specific management efficiency savings which 
includes $3.4 million from property consolidation.
    The Department's 2011 budget assumes $62.0 million in savings from 
three specific Department-wide management initiatives launched in 
2010--travel, information technology consolidation, and strategic 
sourcing. All of these improvements were identified from the 
Administration's SAVE Award effort, where Federal employees across the 
country put forward their best ideas to improve government operations. 
Each of these initiatives targets unnecessary redundancy. Implementing 
management policies will reinforce these initiatives to ensure 
efficiencies are achieved. Savings from these reforms are assumed in 
each bureau and program office budget request commensurate with 
established criteria.

                LEGISLATIVE AND ADMINISTRATIVE PROPOSALS

    The budget assumes enactment of a number of legislative proposals, 
including:


  <bullet> Termination of mandatory payments from the General Treasury 
        to States and Tribes that have been certified as completing 
        reclamation of abandoned coal mine sites and, consequently, no 
        longer need funds for that purpose.
  <bullet> A $4 per acre fee on non-producing Federal oil and gas 
        leases on Federal lands and waters to provide a financial 
        incentive for oil and gas companies to either get their leases 
        into production or relinquish them so that the tracts can be 
        re-leased to and developed by new parties.
  <bullet> The budget proposes to make permanent the current 
        arrangement for sharing the cost of administering energy and 
        minerals receipts. Under current law, States receiving 
        significant payments from mineral revenue development on 
        Federal lands also share in the costs of administering the 
        Federal mineral leases from which the revenue is generated 
        through a 2 percent deduction from their payments.
  <bullet> The Administration will submit legislation to repeal 
        portions of Section 365 of the Energy Policy Act. Section 365 
        diverted mineral leasing receipts from the Treasury to a BLM 
        Permit Processing Improvement Fund and also prohibited BLM from 
        establishing cost recovery fees for processing applications for 
        oil and gas permits to drill.
  <bullet> The Administration will submit legislation to repeal Section 
        224(b) of the Energy Policy Act of 2005. The repeal of Section 
        224(b) will permanently discontinue payments to counties and 
        restore the disposition of the geothermal revenue to the 
        historical formula of 50 percent to the States and 50 percent 
        to the Treasury.
  <bullet> The budget proposes to repeal Sections 344 and 345 of the 
        Energy Policy Act of 2005. Section 344 extended existing deep 
        gas incentives and Section 345 provided additional mandatory 
        royalty relief for certain deepwater oil and gas production. 
        These changes will help ensure that Americans receive fair 
        value for Federally-owned mineral resources.
  <bullet> The Administration proposes to reauthorize FLTFA, 
        eliminating the 2010 sunset date and allowing lands identified 
        as suitable for disposal in recent land use plans to be sold 
        using the FLTFA authority. FLTFA sales revenues would continue 
        to be used to fund the acquisition of environmentally sensitive 
        lands and the administrative costs associated with conducting 
        sales.
  <bullet> Federal Migratory Bird Hunting and Conservation Stamps, 
        commonly known as Duck Stamps, were originally created in 1934 
        as the Federal licenses required for hunting migratory 
        waterfowl. The Administration proposes to increase these fees 
        to $25 per stamp per year, beginning in 2011. Increasing the 
        cost of Duck Stamps will bring the estimate for the Migratory 
        Bird Conservation Account to $58.0 million.
  <bullet> The Office of Insular Affairs is currently engaged with the 
        State Department, the Defense Department, and other agencies in 
        a review of the Compact of Free Association with the Republic 
        of Palau. Permanent and indefinite funding for the compact 
        expires at the end of 2010. The 2011 budget seeks to authorize 
        permanent funding for the Compact as it strengthens the 
        foundations for economic development by developing public 
        infrastructure, and improving health care and education.

    Through appropriations language, the Administration proposes to 
implement the following changes:


  <bullet> Create an inspection fee in 2011 for onshore oil and gas 
        drilling activities that are subject to inspection by BLM. The 
        proposed inspection fee is expected to generate an estimated 
        $10.0 million in 2011, offsetting about 25 percent of the cost 
        of onshore inspections.
  <bullet> Continue a fee for processing drilling permits through 
        appropriations language, an approach taken by Congress in the 
        2009 and 2010 Appropriations Acts. A fee of $6,500 per drilling 
        permit was established in 2010, and if continued, would 
        generate an estimated $45.5 million in offsetting collections.
  <bullet> Increase the inspection fees in 2011 for offshore oil and 
        gas drilling activities that are subject to inspection by MMS. 
        The increased fees are expected to generate an estimated $20.0 
        million in 2011, offsetting about half of the cost of 
        inspections.

           SAM HAMILTON, DIRECTOR, FISH AND WILDLIFE SERVICE

    Before I conclude my statement, I want to pay tribute to a great 
conservation leader that died last week. Sam Hamilton was a visionary 
and a professional whose years of service and passionate dedication to 
his work have left an indelible mark on the lands and wildlife we 
cherish. His forward-thinking approach to conservation--including his 
view that we must think beyond boundaries at the landscape-scale-will 
continue to shape our nation's stewardship for years to come. He as a 
remarkable leader and a compassionate, wise, and eternally optimistic 
man
    When Sam become the Director of the Fish and Wildlife Service on 
September 1, 2009, he brought over 30 years of experience with the 
Service, beginning when he was 15 years old working as a Youth 
Conservation Corps member on the Noxubee National Wildlife Refuge in 
Mississippi. Throughout his career, Sam exhibited outstanding 
leadership and fostered creative and innovative solutions to the 
challenges facing wildlife conservation. In the Southeast Region, he 
supported efforts leading to the establishment of a carbon 
sequestration program that has helped biologists to restore roughly 
80,000 acres of wildlife habitat. His emphasis on partnership 
activities bolstered the Service's fisheries program and helped 
establish the Southeast Aquatic Resources Partnership to restore vital 
aquatic habitats across the region.
    Sam provided key leadership and oversight to restoration work in 
the Everglades and oversaw the extensive recovery and restoration 
efforts following Hurricanes Katrina and Rita, which devastated coastal 
wetlands, wildlife refuges, and other wildlife habitat areas along the 
Gulf of Mexico. Sam believed that the sustainability of the nation's 
fish and wildlife resources require our cooperative efforts and he 
worked tirelessly toward building collaborative partnerships for 
conservation of resources for this and future generations. We will miss 
Sam.

                               CONCLUSION

    Thank you for the opportunity to testify on behalf of the 
President's 2011 budget request for the Department of the Interior. I 
want to reiterate my appreciation for the long-standing support of your 
Committee. We have a tremendous opportunity to improve the future for 
our children and grandchildren with wise investments in clean energy, 
addressing climate impacts, treasured landscapes, our youth, and the 
empowerment of tribal nations. I look forward to working with you to 
implement this budget. This concludes my written statement. I am happy 
to answer any questions that you may have.

    The Chairman. Thank you very much for that statement. I'll 
start with a few questions. I see we have quite a few members 
here to ask questions.
    There have been a number of stories in the press recently 
about a leaked departmental memo describing possible new 
national monument designations under the Antiquities Act. Could 
you clarify the purpose of that memo and any statements you 
could give us as to the meaning of the lists of sites attached 
to the memo and your intentions with regard to that?
    Secretary Salazar. Thank you, Chairman Bingaman for asking 
that question and I appreciate the letters, as well, that I 
have received from several members of this committee, as well 
as others, expressing some concern.
    Let me, first and foremost, say that I think that the work 
that this committee did last year in pushing forward for what 
became, what I considered to be the American Great Outdoors Act 
of 2009 was known here in some quarters as the Omnibus Land 
Bill, was a wonderful effort on behalf of conservation for 
America. It was the kind of approach in many of the pieces of 
legislation that were included in that major bill, which was 
the same approach that we intend to take with respect to the 
management and the protection of our public lands.
    In that legislation, working with Senator Bennett, dealing 
with issues in Utah where you had local community support and 
strong support for moving forward with some additional 
wilderness areas, and almost every single member of this 
committee, I think, had projects that were included in that 
legislation. That's the kind of approach that we intend to 
take. So, we will listen to the people of this country, State 
by State, as we develop the initiatives. Some of them will come 
from you as, in fact, many of them are already coming from you.
    Chairman Bingaman, for example, has the possibility of a 
new national park in the great State of New Mexico in Valles 
Caldera. Those are the kinds of things that we're looking for. 
So, there's no hidden agenda on the part of my Department. As 
Secretary of the Department, I am interested in finding out 
what my employees are thinking, about what some of their ideas 
are. Just as I am interested in what employees within the 
Department of the Interior think about these issues, I too 
think that there are lots of other people out there who have 
their ideas. So, no one should be too worried that there is any 
kind of Federal hidden agenda, because there is not.
    The Chairman. Let me ask about an issue that is particular 
to my State. The budget that has been submitted by the 
administration includes a proposal to eliminate the ability of 
so-called non-certified States and tribes to use abandoned mine 
land funds under the Surface Mining Control and Reclamation Act 
for high priority, non-coal projects. This is, despite the fact 
that Section 409 of SMCRA has allowed non-coal reclamation to 
be undertaken with these funds since the enactment of that 
statute in 1977.
    The proposal would hit States like New Mexico very hard, 
effectively requiring that reclamation of lower priority coal 
sites be pursued while leaving high-risk, abandoned hard rock 
sites untouched. I wondered if you had any thoughts on this, if 
you could tell us what the budget savings would be expected to 
be from this kind of a change as proposed in the budget?
    Secretary Salazar. The proposed budget cut results in a 
reduction of approximately $164 million. This is one of those 
issues which, frankly, I wish it were the other way. Because I 
think that States of New Mexico and Montana, the tribes that 
are involved, other States that are involved, put these moneys 
to good use. we know the problems that we have with the Bannan 
mines in the west, we have tends of thousands of sites that, 
frankly, need money in order to be able to reclaim those 
abandoned mine sites.
    So, the balancing that took place in putting together this 
budget was a balancing exercise of coming--trying to come up 
with--places where tough choices had to be made. In the case of 
the funds for abandoned mines which come from the Coal Fee 
Certification money that is at issue, here, that--those moneys 
are going to States where the reclamation for those coal mines 
had already taken place, and the money was already there.
    So, it's not something that, frankly, I'm excited about. 
It's a painful cut, but it's something that OMB and the 
administration and Interior felt was appropriate to move 
forward with to try to balance the budget.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Secretary Salazar, I would like to follow up with the CD5 
issue. This is the denial of the permit to advance in the 
National Petroleum Reserve, we had an opportunity to speak 
about this.
    What I am seeking this morning is some assurance that 
Interior is committed to developing NPRA's oil and gas 
resources. In seeking that assurance, I would like greater 
understanding or clarification. Within the decision, the 
administration designated the Colville River Delta as an 
``Aquatic Resource of National Importance.'' There was no 
public comment or information as to what this term actually 
means; it's one that I was not familiar with, Aquatic Resource 
of National Importance. Not only did we not understand what the 
term was, but there was no Congressional influence on what 
seems, in my opinion, to be a pretty effective withdrawal of 
this land with this designation. Can you give me a level of 
assurance that we can advance work in the National Petroleum 
Reserve Alaska? Again, help me understand this designation of 
Aquatic Resource of National Importance, what impact this might 
have on any future efforts to try to develop NPRA?
    Secretary Salazar. Senator Murkowski, you raise a very good 
question, we've had conversations with you and your staff about 
this.
    First, let me say it is our intention to continue forward 
with oil and gas leasing on NPRA and perhaps it's those actions 
that you all ought to look to in terms of where the 
administration is heading with the NPRA. We have a lease 
schedule--a lease sale scheduled for this summer at NPRA--and 
vast acreages have already been leased under the Department of 
the Interior at NPRA.
    We have no intention, Senator Murkowski, of pulling back 
from those rights that have already been granted. So, I would 
say that that's what you should look to in terms of where we 
are and where we are headed.
    Second, with respect to this specific issue concerning the 
404 permit that was denied by the Corps of Engineers--it was 
denied by the Corps of Engineers, not denied by the Department 
of the Interior----
    Senator Murkowski. But there was input from Fish and 
Wildlife.
    Secretary Salazar. It came to my attention, Senator 
Murkowski, with our meeting. So the Chief of Staff and the 
Assistant Secretary for Fish and Wildlife and Parks, Tom 
Strickland, is looking at exactly what happened and trying to 
figure out how it is that we can bring about a solution that 
works if, at the end of the day, you can not access the 
resource, if you can't get to it. So that's what the bridge was 
attempting to do, is my understanding.
    So, I have asked Tom Strickland to look into that issue and 
we'd be happy to get back to you. You know, at the end of the 
day, you all--some of you worked with an executive side of 
government. There are lots of other players that are involved 
in this. We don't control the Corps of Engineers, nor do we 
control EPA. So, one of the things that I've asked Tom to do is 
to reach out across to other--the other agencies--to see if 
there's a way forward.
    Senator Murkowski. I appreciate that, and I appreciate your 
statement that you will continue to make leases available. But, 
as we all know, it's not just making it available. That's the 
first step, but then we have to ensure that we allow for 
meaningful opportunities to pursue it and that our agencies 
don't shut down once the permits are issued.
    We had a discussion about offshore and the frustration that 
we've seen for the past 3 years in getting a level of permits.
    I wanted to ask you about the 5-year plan, as you know, 
that decision is due to come out and we're hopeful that we'll 
see that soon, because once again, timing is everything and you 
have a very, very short window for operation up north.
    There was an article in the Wall Street Journal that 
reported on an email that came out of MMS under the Freedom of 
Information Act and it appears that the MMS administrator 
attempted to coordinate a delay and to spin the release of the 
public comments on the 5-year plan--which the administrator 
indicated shows a two-to-one split in favor of expanded OCS 
development. I'm not saying that I necessarily believe 
everything that I read in the paper, but the email did cause 
concerns. I'm wondering whether any of the comments or the 
apparent activities described in that warrant concern, either 
by members of this committee, or any kind of action, whether it 
be disciplinary action within the Interior.
    As you and I have discussed, this 5-year plan that we have 
been awaiting is incredibly important for development of 
activities up north. To read of this spin, if you will, or an 
effort to delay, causes some concern.
    The Chairman. Mr. Secretary, before you answer that 
question, we've advised folks that we might, if we got 12 
members here, we would go ahead and do a business portion of 
this meeting.
    [Whereupon, at 10:33 a.m., the hearing was recessed.]
    [Whereupon at 10:34 a.m., the hearing was reconvened.]
    The Chairman. You can go ahead and respond, if you would, 
Mr. Secretary, to the last question and then we'll go on to 
Senator Wyden.
    Secretary Salazar. Mr. Chairman, with your indulgence, I 
know Senator Murkowski's time was up, but can I take 5 minutes? 
Because I think the OCS question is probably something that 
everyone is probably concerned about.
    The Chairman. Go right ahead and take whatever time you 
need to respond to her question, please.
    Secretary Salazar. Let me first of all say that the outer 
continental shelf and how we move forward with the outer 
continental shelf has been one of the huge issues of work on 
behalf of the Department of the Interior for a very long time. 
We are hopeful that we will be able to make the announcements 
on where we are moving forward on the outer continental shelf 
yet this month, and are trying to move on that as quickly as we 
possibly can. I want to amplify on that in just a little bit.
    But I want to come back, Senator Murkowski, to the first 
question that you alluded to and that's with respect to the 
rights that are granted and the honoring of rights that have 
been granted. Because I think in your earlier question you said 
something to the extent about, it's one thing to give out the 
rights, it's another thing to then continue to support the 
development.
    You know, we have moved forward, we've taken a number of 
actions, including major lease sales that have been conducted 
in the Gulf Coast. We also have moved forward with the issuance 
of--and approval of--the exploration plans in both the Bofort 
and the Chocchi Seas in Alaska, and are supporting those 
efforts in moving forward. You are correct in making the 
statement that it is one thing to issue the lease, it's another 
thing to come in and to be supportive, then, of the 
development.
    I think that though we are not yet at the point where we 
have the finalized record and decision with respect to the OCS, 
what we are attempting to do is to pull together a plan for the 
outer continental shelf that will cover both the existing 
current plan which you are concerned about--the 2007-2012 
plan--as well as looking into the future and moving forward 
with a future plan for the outer continental shelf.
    Now, in doing that, it has been difficult to do, in large 
part, because of the failure--and I say this with all due 
respect--of the earlier plan, the 2007-2012 plan, in conducting 
the necessary environmental analysis that the court required it 
to conduct.
    I had no intention as Secretary of the Interior to revisit 
the 2005-2007-2012 plan, but the second highest court in the 
land essentially said that the Department of the Interior had 
simply not followed the law. That the Department of the 
Interior had not done the environmental sensitivity analysis 
that was required before making decisions concerning the entire 
outer continental shelf at first. We had to back into court and 
get it clarified that the scope of the court's decision did not 
affect the Gulf, but affected only the Alaskan waters. But then 
because of the legal decision, we still had to go through and 
we had to rebalance the entire outer continental shelf.
    So we are at a point--getting very close--where we will be 
issuing a decision that this time, hopefully, will not suffer 
from the inadequacies of the past plan, and will be able to 
survive the challenges that are certain to come with respect to 
the finalization of that plan and challenges from people who 
will not like where we ultimately land on that plan.
    With respect to the future 5-year plan, we held hearings--
including 2 in Alaska, one in Dillingham, Alaska and one in 
Anchorage, one on the Pacific in San Francisco and New Orleans 
on the Gulf and also in Atlantic City--to look at the Atlantic 
waters. The OCSLA statute is one that gives the Secretary of 
the Interior guidance through the policy and the 8 factors to 
be considered in that analysis and we are now marching through 
each of those factors and getting very close--based on all of 
the information that has come in--on announcing where we are 
going to go.
    So, I expect that in the month ahead, we will be getting to 
a decision that can be announced and perhaps it may happen even 
earlier, as soon as we can get all of the documentation 
together.
    On your question concerning the emails, there's been 
nothing that has been done that, at all, is inappropriate. The 
fact is that we received some five hundred--I think it was 
500,000 comments with respect to the new plan, the new 5-year 
plan. Those comments are out there and those comments will be 
analyzed and those comments are very much open to the public.
    Our own effort--and this has been my effort as Secretary of 
the Interior--has been to try to pull together the old 5-year 
plan, which had been subject to litigation and which was being 
held up and who knows for how long it would have been held up, 
and also moving forward with the new 5-year plan.
    It seems to me that you, as members of the U.S. Senate, 
members of this committee and your States and this country, are 
entitled to know with some certainty, relative to where we are 
going, on the entire OCS. I expect to be able to get that 
information to all of you within this month.
    Senator Murkowski. Thank you, Mr. Secretary, I appreciate 
the expanded explanation and for the indulgence by the Chairman 
in doing so.
    I will just reiterate, as much as I appreciate the effort 
and the need to be very thorough with this, I've stressed 
before--and I know it has been received by you we will miss out 
on this season if decisions aren't made within this very short 
window. I appreciate your attention on expediting this very 
important process.
    Secretary Salazar. Let me just, in conclusion to that 
point, say that I am very, very aware of that fact, and it is 
what is driving some very, very hard work that is underway, as 
we speak.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Secretary, it is always good to be working with you and 
there are plenty of sensible ideas that you have in your 
budget--particularly renewable energy, the Land and Water 
Conservation Fund--there are plenty of sensible ideas in your 
budget.
    My concern this morning is that forestry takes a real 
pounding in this budget. My home State of Oregon is all about 
forests. If this proposal goes through in its present form, 
we're going to lose mills, we're going to lose jobs, and some 
of the most hard-hit communities in our country are going to 
lose their futures--families are just not going to be able to 
get by.
    Now, specifically, the one-two punch is the $44 million 
reduction in hazardous fuels. This is the money that is so 
essential to go in there and thin out these overstocked stands 
and get the timber to the mills and prevent fires, get the 
forests, you know, healthy again.
    Then in the ONC lands in Southern Oregon, there's a cut of 
$5 million in their budget--this is for timber sales, for 
thinning, and responsible management. So, let me take both of 
those up, briefly, Mr. Secretary.
    In the second area, in Southern Oregon, this proposal to 
cut $5 million means we're going to starve mills in Roseburg 
and Medford where you have unemployment in these communities 
more than 14 percent. We are just not getting the volume up, 
and that's what we've got to turn around.
    Now, as you know, we were ones who were very encouraged by 
the fact that you all said, ``Look, we're not going with the 
Western Oregon Plan revision, but we're going to work with you 
and we're going to get some real sales in Southern Oregon so 
that these mills can get back on their feet.'' My concern is, 
if we don't get the timber sales up, there aren't going to be 
any mills, so then if you have timber sales later on, who's 
going to handle them?
    So, my first question to you, Mr. Secretary, is what can 
you tell us this morning about what you'll do to turn this 
around, get the volume up, particularly in Roseburg and Medford 
and these communities that were told they would see the volume 
ramped up under your new proposal?
    Secretary Salazar. Senator Wyden, I appreciate the question 
and as you know, Tom Strickland, the Chief of Staff and 
Assistant Secretary spent, I think, 3 or 4 days out on the 
ground in Oregon because of the importance of this issue to us.
    What I can tell you is in 2010 we hope to be able to offer 
230 million board feet and in 2011, 185 million board feet. Our 
goal is to balance harvest with the protection of species 
habitat.
    We pulled together a task force that includes a number of 
interests in Oregon, as well as Federal agencies and we are 
waiting for the report from that task force as to how we move 
forward.
    If I recall correctly, the last briefing that I had on 
that, the report was due here at the end of March. So, we're 
aware of the issue and we're hopeful that the report will shed 
some light on the best way forward.
    I would like David Hayes to add a couple of sentences if 
that would be OK with you.
    Senator Wyden. Briefly.
    Mr. Hayes. Very briefly.
    I can confirm, Senator, that the task force that was set up 
after discussions with you last fall to help take a fresh look 
at how to deal with the conflicts in Southern Oregon is due to 
have a report to the Secretary by the end of March. There are 
specific sales moving forward in Southern Oregon totaling, in 
the next 2 months, five sales, close to 10 million board feet--
since October, 14 million board feet in sales in Southern 
Oregon. We're very aware of the importance of continuing to 
push those forward, and we are--we will work to make sure that 
the budget cuts do not, in fact, hinder the ability to continue 
the projected sales that we are anticipating.
    Senator Wyden. Mr. Secretary, I don't see with these budget 
cuts how you're going to get close to the targets. My concern 
is that this is going to be too little, too late to keep the 
mills open. My question here is, we're going to have some of 
the folks from these communities and timber industry people in 
Washington very shortly, can you assign a staff person so that 
I and the folks from these communities and folks from the 
timber sector can come and meet with your people, see what we 
can do to turn this around?
    Secretary Salazar. Absolutely. That would be--we'd be happy 
to have both Tom Strickland and David Hayes in that meeting, 
since they are very keenly aware of the issues in Oregon.
    What we're doing is, we're trying to find a solution, here, 
and they are, as you know, difficult challenges. But if there 
are better ways of doing this, we're happy to listen and 
hopefully we can figure out a----
    Senator Wyden. One last point, very quickly, Mr. Chairman, 
I know my time is up. On the very significant cut in hazardous, 
you know, fuels reduction, our additional concern is that the 
focus, now, is on the wildland-urban interface. We support 
that. But there is a tremendous amount of work that's got to be 
done in the back country. So, I want to work with you, again, 
to change the budget in this area--not so we neglect the 
wildland-urban interface because we share similar views on 
that--but we've got such a backlog of work in the back country. 
These fires, Mr. Secretary, as you know, they are infernos out 
there. They are not natural fires. They're coming about because 
of years of neglect. We've got to go after the back country.
    We are glad you're at your post, we enjoy working with you, 
we've got to turn some of these situations around in forestry.
    Thank you, Mr. Secretary.
    Mr. Chairman.
    The Chairman. Mr. Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman, and Mr. 
Secretary, we appreciate your being here, and I appreciate your 
concern about Utah. The chairman raised the question in the 
memos on the National Monument, let me just share with you our 
experience. You weren't there, so we can be grateful for that. 
You don't have this in your memory but we, in Utah, do. So, let 
me share it with you and you can understand why we reacted as 
strongly as we did.
    Your predecessor, Secretary Babbitt, same thing kind of 
happened. There were leaks in the paper, the Washington Post 
discovered that the Interior Department was talking about a new 
monument in Utah. When I contacted Secretary Babbitt and went 
down to the Department, spent some time with him and the top 
leaders of the Department there, in his office. He assured me--
much as you have assured the committee here, that this was just 
preliminary, and that there was no decision having been made.
    At the same time--and Secretary Babbitt knew how to send 
signals--he did let me know that the President was considering 
a trip to the Grand Canyon on the following Wednesday.
    I then found out that the Vice President had changed his 
campaign schedule, and was going to be at the Grand Canyon on 
the following Wednesday. I know enough about political 
campaigns to know that the President and the Vice Presidential 
candidate do not change their travel schedules for a single 
appearance together unless a decision has been made, even 
though Secretary Babbitt said no decision has been made.
    Then when we said, ``We want to see maps, we want to know 
what you're talking about, this is our State, at least tell 
us,'' Katie McGinty told me, absolutely, on Monday of that 
week, there are no maps. No decision, ``This is just 
conversation, Senator, there are no maps.'' Fourty-eight hours 
later, Leon Panetta, the Chief of Staff of the President of the 
United States, called me to say, ``This afternoon at the Grand 
Canyon, with the Vice President there, the President is going 
to announce the creation of the Grand Staircase Escalante 
National Monument, and reveal the maps.'' Of course, we found 
out that maps had been circulating in the environmental 
community for months. The Sierra Club had had maps months 
before this as Katie McGinty said, ``There are no maps.'' When 
you have that kind of experience, you get a little suspicious.
    So, when the leak came out that there were discussions of 
National Monuments in Utah going on, those of us who had that 
experience had the alarm bells go off and that's why we fired 
the strong letter off to you and took the position that we did.
    You have said, very graciously, and I appreciate it, that 
the work that I did with Congressman Matheson and the County 
Commissioners in Washington County and then the Wilderness 
Society and the environmental groups to try to solve this 
problem of wilderness was the right thing to do.After we did 
it, other counties in Utah came and said, ``Let's do it, 
again.'' By coincidence, San Juan County--which is one of the 
areas that's being, according to the leaks, considered for an 
Antiquities Act action--is one of the counties we've been 
working with and we've just announced the public process of 
comment from San Juan County and all of the stakeholders to try 
to duplicate what we did in the Washington County land use bill 
in San Juan County. That's already underway.
    So, that's why we feel so strongly about this, that the 
Department of the Interior will allow us to go forward with the 
process that you have acknowledged is the right process and 
resolved problem. You're correct when you say, in San Juan 
County, some of the most magnificent wilderness in the country 
is there and needs to be protected. We agree that it needs to 
be protected, but let's protect it in the way we protected the 
magnificent wilderness in Washington County, rather than have 
another sweeping down activity of the Federal Government with 
the Antiquities Act, and Washington knows best, and--I accept 
at face value, your assurance that this is just conversation. 
If, indeed, you're under instructions from the White House to 
do something dramatic and keep it secret from us, I would ask 
you, give me the wink and nod that Bruce Babbitt did, and don't 
be like Katie McGinty and just look at me and lie.
    I know you don't look at people and lie and so I'm not 
suggesting that, but Secretary Babbitt was very, very careful 
of the words he chose so that he did not cross the line of a 
flat-out misstatement, and other members of the administration 
in the Clinton years, were not.
    We had that kind of experience--we sent a request for 
documents, we got the documents, we were able to prove, 
absolutely, from the documents that we had been lied to and I 
share that with you so you can understand the angst that this 
announcement, or this leak, had--or created--in Utah, having 
had that previous experience.
    Now, I want to talk about oil and gas, I'll wait for 
another round for that. But I wanted to get that clearly out 
for everybody to understand. Maybe you felt that we 
overreacted, but that's because you had not lived through this 
experience. You are an honorable man, I don't think you would 
participate in that kind of thing, but we had that experience 
with a previous administration, and we're just--we feel just a 
little bit burned.
    Secretary Salazar. May I respond, Mr. Chairman.
    The Chairman. If you'd like to respond, go ahead.
    Secretary Salazar. Let me, first, Senator Bennett, let you 
know that I do, very much, appreciate that history and know 
what it's like to be on the side of the State where the--
somebody from Washington is coming in and telling the State 
what it is that ought to happen with the Federal lands located 
in that State, so I understand it.
    No. 2, let me assure you that there is no direction from 
the White House on any of this for the Department of the 
Interior--zero, nada, nothing, OK? It just isn't there.
    No. 3----
    Senator Bennett. That's encouraging.
    Secretary Salazar. OK. Let me also assure you of the 
following. That is that, the template that you used with the 
Washington County Wilderness legislation and the template that 
Senator Barrasso and all of you, I think, had pieces of 
legislation in the 2009 Public Lands Act because I worked on 
most of that legislation, that's a template that we ought to be 
using and I look forward to working with you and the people of 
Utah to identify where those areas are or whatever the 
appropriate protection level might be.
    I think you were a pioneer in doing what you were able to 
do in Washington County. It seems to me that we ought to figure 
out a way of replicating that. I have spoken with the chairman 
about the need for us, hopefully, to come together--Congress as 
well as the administration--in moving forward, perhaps, with a, 
you know, 2010 version of what you did in 2009. But it, as you 
know, that legislation was very much a bottom's up--it's what 
the American people wanted, it's what the States wanted, and 
that's our intention as we move forward in the formation of the 
conservation agenda for this country.
    Senator Bennett. Thank you very much, and I appreciate that 
enormously and, as I say, we are well along the way to having 
the San Juan County bill move in the same direction as the 
Washington County bill, and we'll be happy to keep you fully 
informed on that.
    I anticipate that, by the end of this Congress, Mr. 
Chairman, we will have the San Juan County land use bill ready 
to go and ready to be signed by the President in the same way 
that Washington County was.
    So, I appreciate that reassurance, Mr. Secretary, and I 
think the people of Utah will be grateful to have it here, on 
the record, as well.
    Secretary Salazar. Senator Bennett, I would like to--I 
would commit to you that I will come to Utah to meet with the 
group that's working on San Juan wilderness as well as with the 
Governor's group on Bellam's Environmental Labs, I think he 
calls it. I will do that this summer.
    Senator Bennett. We'll always be happy to welcome you. 
Secretary Hayes came and they still remember that visit--I'm 
sure he does, as well. But we're working on those problems, 
too. Thank you very much.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Mr. Secretary, I'm sure you're glad to get to the Northeast 
from all of those concerns that they have in the West, and I 
want to thank you for the work that you and everyone at the 
Department are doing and recognize the difficult challenge that 
you and everyone in government is facing right now as we look 
at the limited resources we have and the amount of work we have 
to do.
    For anybody from New Hampshire who's watching, let me just 
reassure them that while I share Senator Wyden's concerns about 
the forests, I'm not going to raise those since the White 
Mountain National Forest is not under your jurisdiction, but do 
appreciate the importance of recognizing the need for 
conservation with the challenges of keeping our timber industry 
going.
    But I do want to ask you, Mr. Secretary, about a program 
that's very popular in New Hampshire and across New England, 
the Rivers, Trails, and Conservation Assistance Program.
    As you know, our CTA program supports community-led natural 
resource conservation and outdoor recreation projects. The 
Northeast--and many of our communities--have really been 
pioneers in these efforts.
    I want to first thank National Park Service Director John 
Gervais who was very helpful in working with me and other 
members of the New England delegations in looking at the 
reorganization that was proposed for the Northeast and trying 
to address our concerns to make sure that this program 
continues to operate robustly in New England.
    I appreciate the issue that raised and spoke very 
eloquently to about the need to get our young people more 
involved in the outdoors and away from the television sets. 
Looking at the recommendation from the National Park's Second 
Century Commission, they talk about the need to extend the 
benefits of the National Park idea in society by creating--not 
just new National Parks--but corridors of conservation and 
stewardship, cultural connectivity, increasing lifelong 
learning.
    When Mr. Gervais testified before this committee, he talked 
about his interest in expanding the RTCA program and I noticed 
that the budget has a decrease--it's not a huge decrease, but 
it is a decrease nonetheless--and as we think about how we do 
the kinds of things that you're talking about, how we do what 
the 21st Century, or the 2nd Century Commission has talked 
about, how do you reconcile what we need to do in an area like 
rivers and trails and where the budget is going with respect to 
funding?
    Secretary Salazar. Let me just say, my understanding from 
my fabulous Budget Director here to my left is that Pam Haze 
says that funding for rivers and trails in the 2011 budget is 
level with what we had in 2010, is that correct? There were 
those management efficiencies were, what, just a fixed cost?
    Ms. Haze. Travel----
    Secretary Salazar. Travel.
    Ms. Haze. Consolidating information technology, trying to 
find ways to save money within existing Departments.
    Secretary Salazar. Let me, if I may, though take it--the 
fact is, as I started out in this budget presentation, we are 
dealing with some very tough times, OK? It was not easy for me 
to basically say to our folks, ``We're going to have to eat our 
fixed costs.'' So, any increases in cost of living, et cetera, 
we're going to have to find a place in our budget to meet those 
needs. Same thing with travel, same thing with IT, and so those 
are the kinds of efficiencies here.
    But let me come back to a larger question which, I think, 
you have put your fingers on, Senator Shaheen, and that is that 
there is something that is almost magical and wonderful about 
the river ways and trails of America. We have not, as a 
country, done enough in the recognition of what we have to do 
with those trails--whether they are urban trails and places 
marked, like in Denver on the South Platte--or the trails of 
New Hampshire.
    So, that is part of what I hope to do in some of the 
listening sessions that we will be having in the year ahead. 
That we really have a conversation with America about how it is 
that we ought to be taking care of some of these places.
    They can become the renaissance for economic development, 
as this happened with many river ways across this country--the 
become the renaissance of health for people as they have in the 
middle Rio Grande and the Bosque, right? In Albuquerque, 
Senator Bingaman? Or they can become, in any of the wildlife 
refuges or parks or places that aren't even under the control 
of the Federal Government but which are under the control of 
the State or local government or even non-profit entities, but 
there is so much potential with respect to what we do with our 
rivers in this country that can still be consistent with 
recognizing the existing historic use rights.
    I always--when I give speeches about rivers, Senator 
Shaheen--I speak about the fact that for so many years this 
country, essentially, turned its back to the rivers of America 
and used the rivers of this country essentially as our 
cesspools and dumping places. That's true whether you're from 
the east or the west or the south or the north, there was no 
difference. One of the transformations that I think we've seen 
in the last 25 years or so is that people are now turning their 
faces to the river and recognizing that rivers and streams are, 
in fact, major opportunities for jobs and economic development 
for healthy communities and recreation and a whole host of 
other amenities that make our communities great.
    Senator Shaheen. Thank you.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Mr. Secretary, good to see you again, I appreciate your 
time today. I remain concerned, and you and I have talked about 
this, by the administration's--what appears to be a war against 
American oil and natural gas production. I have great concerns 
about a war on western jobs. These are hardworking people. 
These are people in the oil and gas areas who wake up early, 
try to get the kids off to school, get them fed and then go and 
work very hard to work toward energy security in this country. 
They have invested blood and sweat in their jobs, in creating 
jobs and producing the energy that powers America.
    Now, the administration likes to talk about the virtues of 
natural gas, but it seems to me, Mr. Secretary, that the 
administration is simultaneously imposing regulations and taxes 
to drive the industry into the ground. It seems that the right 
hand is not talking to the left hand, and there are new 
regulations that seem to me to be burdensome, duplicative, and 
my question to you is, does this administration believe that 
all of these regulations are actually going to help create jobs 
and foster increased production and the energy security that 
our country needs?
    Secretary Salazar. The answer, Senator Barrasso, is we 
believe that we're going to do it the right way. We believe 
that we need to explore and develop in the right places, and 
with the right information. I think if we do it right, in the 
way that we are proposing and there are people who have better 
ideas, we're always open to those better ideas. But the reality 
of it is, that most of the oil and gas leasing and the rush to 
leasing that occurred in your State and other States in the 
last administration, essentially led to the kind of log jam 
where 50 percent of the leases that were being handed out 
essentially ended up in endless litigation. That's in contrast 
to the circumstance that we had 10 years ago, where less than 1 
percent of leases would end up in protests and litigation. Yet, 
at the end of the last administration, almost half of them were 
ending up in litigation. That's because there was a failure to 
do thoughtful planning with respect to where oil and gas 
production should, in fact, be taking place on the public 
domain.
    If you have an oil field--a natural gas field--that's 
already developed out there, the known resources are there, the 
infrastructure is there--those are the places that we ought to 
go, first. It doesn't mean we should shut the world off to 
other places, but we ought to be proactive, working with the 
industry to make sure that we are being supportive.
    But let me, I want to make just a comment about the overall 
sentiment which you expressed which is a frustration with the 
administration. Let me first say that President Obama has made 
it clear from day one that what he wants to do is to have a 
comprehensive energy plan. That that comprehensive energy plan 
needs to creates jobs here in America--to your point about job 
creation--No. 2, that we need to move forward with getting 
ourselves out of the great dependence that we have on foreign 
oil, and No. 3, that we need to address the issues of global 
warming, which are real.
    So, those are the things that we have talked about. Now, in 
our Department, how we have taken that charge forward is, yes, 
we've moved forward with renewable energy, yes, we've moved 
forward with climate change initiatives, but we've also 
supported oil and gas development, I think, in what is a very 
robust way.
    Just a few statistics. In 2009, we leased more acres in the 
offshore, Senator Landrieu, than any other year since 2000, OK? 
federally, onshore, oil production increased 14 percent in 
2009, onshore bonus revenues in 2009--these are the bonuses, 
this is not for the production that is actually taking place--
were at their highest level since 2001.
    We had onshore acreage leased in 2009, I think, in each one 
of your States, with multiple leases that we issued, and so we 
continue to move forward with, I think being supportive of oil 
and gas development in this country.
    We also have to be mindful that we need to get a fair 
return back to the American taxpayer, so we are not--as some 
people would claim--taxing the oil and gas industry to death; 
$45 billion in profits were reported by Exxon Mobile and $26 
billion by Royal Dutch Shell, and yet, our Federal onshore 
royalty rate at 12.5 percent is essentially the same rate that 
was in place in 1920 when the 1920 Mineral Leasing Act was 
passed.
    The reason that that number was chosen back then is 
because--coming out of the common law in England, it was seen 
as the King's share. The King's share was 12.5 percent. So the 
King's share at 12.5 percent chosen back in 1920 may not be 
what the share ought to be now in 2010. But when you compare 
States, for example, like Texas where, on average, the onshore 
royalty rate is 22.5 percent, I think that all of us have a 
responsibility to make sure that if a public domain is being 
used, that there's being a fair return back to the taxpayer.
    So, I would just say, in sum, that we are supportive of oil 
and gas development, Senator Barrasso, including in your State, 
and we move forward with leasing in your State and we also are 
very adamant about making sure that at the end of the day the 
taxpayer gets a fair return for this property.
    Senator Barrasso. Thank you, and I think it looks like my 
time is expired. I just know revenues from oil and gas bids and 
rentals in Wyoming in 2008 was over $93 million and last year 
it was dropped to $10 million, so we need to make sure, maybe, 
that we're looking at the same numbers, because from a revenue 
standpoint there has been a significant reduction--it drops way 
below just what the price of natural gas seems to be, or the 
changes in the price of oil.
    Perhaps I'll have more questions for a second round, Mr. 
Chairman. Thank you.
    The Chairman. Very good.
    Senator Udall.
    Senator Udall. Welcome, Mr. Secretary, it's wonderful to 
see you here. Congratulations on a very successful first year. 
You are known for not wasting an hour, much less a minute, and 
you've assumed the helm of this important part of our Federal 
Government's responsibilities, and I'm very, very proud of you 
as a fellow Coloradan.
    You'll always be my senior Senator, it's great to have you 
back in that----
    Secretary Salazar. I don't want you to ever forget that, 
you know.
    [Laughter.]
    Secretary Salazar. I notice you're higher up on the dais 
than I am down here on the table, you know?
    [Laughter.]
    Senator Udall. That's only temporary, Mr. Secretary.
    Let me just start and say thank you for the tough decisions 
you made when it comes to your budget. We all know we're going 
to have to tighten our belts, and this is the kind of 
conversation that we're going to have to have across the 
Federal list of responsibilities and the Federal Cabinet 
officials.
    I don't agree with all of them, none of us do, but you've 
shown leadership in presenting us with your budget.
    I did, though, want to acknowledge some of the key elements 
with which I do agree. The $3 million for the Arkansas Valley 
Conduit--you know as well as I do, the importance of that 
project to get clean, safe and predictable drinking water to 
the people of Southeastern Colorado. I know you'll make it a 
priority because you know, firsthand, what small communities in 
poor economic situations face when it comes to the 
responsibility to meet the Federal Water Quality Standards. So, 
thank you for your leadership there.
    Let me turn to LWCF, I know it's very important to Senator 
Landrieu and all of us. I like the idea that you've put 
resources under the LWCF category for purchasing land in the 
Canyon of the Ancient's National Monument with which you're 
very familiar.
    On another note, let me associate myself with the 
Chairman's comments on abandoned mine land payment programs. 
You and I share a passion about cleaning up those abandoned 
mine land sites and I'm not quite sure what the intent of the 
cuts are in the change in the approach of coal lands, but we 
would welcome your comments there, Mr. Secretary.
    Let me turn to the conversation you just had with Senator 
Barrasso. I want to just acknowledge the balanced approach that 
you've taken. You've clearly immersed yourself in--as you just 
pointed out to us--the history of how we treat public lands, 
that the return is due to the taxpayers, and I believe that 
there's no better proponent than you of natural gas and the 
important role that it will play as a bridge fuel in our 
future. But we have to develop it in a responsible way, and the 
responsible leaders in the industry itself who know that you 
have to protect the health and the environment of surrounding 
communities.
    I think, Mr. Secretary, and I would welcome your comments, 
you've created an environment of more certainty, 
predictability, which we hear the business community wants and 
needs, so I thank you for that.
    I would welcome any comments you have on the proposed 
changes to the oil and gas fee policies, I don't--I didn't hear 
you speak specifically to that, but if you'd like to share with 
us your thinking there, I would appreciate it.
    One final comment before I leave the rest of my time to 
your comments is, in your leadership on renewable energy, on 
public lands has been exemplary, and I know you've added some 
additional funding there. I would welcome your comments, as 
well, on your vision and your goals when it comes to renewable 
energy on public lands.
    So, again, great to have my Senator here.
    Secretary Salazar. Thank you very much, Senator Udall, and 
thank you for your long leadership in Colorado and for your 
friendship. The Udall name is synonymous of the great 
conservation legacy of America.
    Let me just say in quick response that some of your 
questions--first, on the increased fees for oil and gas. This 
is a tough budget. When you think about the deficit situation 
which all of you are immersed in here in this Senate, we needed 
to come up with places where we could put together a budget 
that ultimately would work. So that these are in here for oil 
and gas permitting activities onshore as well as inspection 
fees--both offshore and onshore are all consistent with what we 
think is appropriate to be paid.
    I do think that, frankly, any of these fees that we're 
talking about, here, are going to put anybody out of business. 
The fact of the matter is that there is huge oil and gas 
resource out there in the public domain and these fees will be 
part of doing business but it's not going to have a negative 
effect in terms of the economic incentive to moving forward 
with the development.
    In terms of the natural gas, I would just say, you know, 
our position in the Department is that we are proud on the fact 
that it through the U.S. Geological Survey--which is probably 
the best earth science agency in the United States and maybe in 
the world--that we have part of the effort of developing the 
information on the availability of natural gas resources, and 
there is huge potential--based on the estimates that USGS has 
come up and based on estimates others have come up, on the 
development of natural gas here in the United States. So we 
agree that it is one of the keys to getting us to the new 
energy future and to the energy independence which, I know, 
strikes a cord in all of you across the table.
    With respect to the Land and Water Conservation Fund, I 
think it was Stuart Udall who sat in the Office of the 
Secretary of the Interior with a number of people--including 
Henry Diamond and Gil Grossner and others to come up with the 
Land and Water Conservation Fund concept back in the 1960s. As 
Senator Landrieu and Senator Alexander have often talked about 
that concept, along with Senator Bingaman, there was a view, 
then, that if we were taking something from the earth that we 
ought to be returning, at least, a portion of it back to the 
earth in the name of conservation.
    As Senator Bingaman, the chairman, in his opening comments 
to this hearing made the comment that $900 billion, yes, were 
being credited to the Land and Water Conservation Fund but it 
never gets there. Because it has to be subject to 
appropriation. You know, I noticed Senator Bingaman and, I 
believe, Senator Baucus have legislation that would change that 
around.
    I don't know where, ultimately, that all will end up, but 
it does seem to me, quite frankly, Senator Udall, that the way 
that the United States of America--under both Republican and 
Democratic rule--have essentially dealt with the Land and Water 
Conservation Fund as essentially a 50-year broken promise to 
America. We're trying to restore that by getting the funding 
back into LWCF.
    The Chairman. Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for your really extraordinary 
leadership and, I think, your exemplary environmental 
stewardship of a very important department in our country.
    I want to start off on a very positive note and commend you 
for your work on your Rivers Initiative. I think the exchange 
that you had with Senator Shaheen is really quite special, and 
I want to commit to you to work with you.
    There are thousands--hundreds, thousands--of rivers in 
America that bring life and joy to people, to families, to 
children that don't only live in rural areas with great 
expanses, but live in inner cities and they're shut out from 
their rivers and their waters. I've seen the transformation of 
a very special place happen right in my own city of New Orleans 
when the river was opened up. That city is going to celebrate 
its 300th birthday in 2018. So, it will be really an 
extraordinary promise, a very important port city of our 
Nation.
    Which brings me to the first point. Of all of the rivers in 
America, the Mississippi River is its greatest. It opens the 
interior of our continent, it supports 25,000 miles of inland 
waterway, it drains 40 percent of the continent--not just the 
United States, but of the continent. The drainage base, in 
itself, is 1.3 million square miles. As you know, Mr. 
Secretary, because you and your team have flown over this great 
delta, it is unique in the United States and there are only 
about 9 such deltas in the whole world. It is--to bring to your 
attention--at great risk, the delta of the Mississippi, the 
coast of Louisiana. We're losing a football field equivalent of 
land every 30 minutes. So, when people think about Drew Brees 
being on the field, throwing that football for an hour, I hope 
they think about the land loss that's happening in this delta.
    Which is why you and I have fought for years about how to 
find a way to fix it. One of the ways that we believe--with the 
science coming together--is a revenue stream that could be 
committed, over time, to restore this extraordinary marsh, to 
support the navigation and work that goes on in this delta and 
the tremendous economic vitality of this delta--much like we 
see in the drainage through the Netherlands of Europe--is the 
same sort of situation that we see in terms of drainage of the 
United States through Louisiana.
    So, can I just have your, just brief 30 seconds on your 
commitment to helping us find a way forward? Your understanding 
that this is a very special place in the country, and your 
commitment to help us continue to find a reliable, robust 
stream of revenue to support its existence?
    Secretary Salazar. The answer to that, Senator Landrieu, is 
absolutely yes. I'm committed to the restoration of the 
Mississippi and the Gulf Coast and frankly when you look at the 
great landscapes of America, whether it's the Great Lakes or 
the San Francisco Bay delta, or the Crown of the Rockies or the 
Chesapeake Bay, there's frankly a lot of work to do, as well as 
the kinds of rivers that we have in my State, which nobody 
would recognize outside of the local community.
    There is a reality that there has not been a coherent, 
coordinated national approach to these kinds of efforts and 
hopefully that's what we'll be able to find this year.
    Senator Landrieu. I look forward to working with you on 
that.
    On another subject, not as positive, is in this delta, as 
Senator Barrasso brought up, there is a tremendous amount of 
positive oil and gas development, both offshore, right onshore 
and then inshore--particularly with the discovery of the 
Haynesville Shale. Which, I was just given some information 
about the Haynesville Shale, which is one of the largest finds 
of natural gas recently in the country. They believe that we've 
found 251 trillion cubic feet of natural gas. That's 11 times 
more than the country used in its entirety last year. That's 
just one find in the Haynesville Shale.
    The industry tells me that it's been game-changing in the 
last 24 months--even men and women who have been in the 
business for 40 years--are coming to talk to me about the fact 
that the discoveries of natural gas in this country are beyond 
what they even imagined--and you have to be optimistic to be in 
the oil and gas business.
    So, my point as my time comes to an end, is it seems quite 
contrarian, the President--I know you're not in charge of the 
tax code--but the administration has put forward Draconian 
taxes on an oil and gas industry. It seems very contrary to our 
stated goals of being more energy sufficient in the United 
States. In other words, taxing a domestic industry that will 
cut jobs, increase our dependency on foreign oil, seems 
contrary to your stated opening statement about relying more on 
our own ability to produce.
    So, I want you just to deliver that message, again, to the 
administration. We have bipartisan opposition to oil and gas--
taxing of this oil and gas industry. While we move to 
alternatives, we need to continue to mine the natural gas that 
is in this country--and oil, as well--as we move to a greener 
grid. There's going to be fierce opposition to taxing this 
industry, because it is counter to creating jobs and counter to 
energy independence.
    My final point--I know I've just got 30 seconds, Mr. 
Chairman, and I appreciate it--is your policy about wild 
horses. I want to thank you for your commitment to preserving 
what's special about America; the cultural treasures of our 
country. I would think that watching a herd of wild horses run 
free in the west is one of those scenes we don't ever want to 
shut out to our children. In my view we are on the verge of a 
disastrous policy if we don't work harder to change that.
    I'm going to--my time is out--but I want to visit with you 
about what is in this budget about the millions of acres of 
land we have in the west that seem to be diminishing, in terms 
of their survival, and how we really need to come to terms with 
that in a way that the taxpayers can support, and we can 
preserve that great scene that--while people haven't seen it 
with their own eyes, they see it in the movies, they dream 
about it at night--and we never want it to go away.
    Thank you, Mr. Secretary.
    The Chairman. Senator Murkowski, did you have additional 
questions?
    Senator Murkowski. I do, Mr. Chairman, I have one more--
maybe it's a combined package.
    But it refers to the Treasured Landscapes and the question 
that I asked in my opening statement, just to gain a better 
understanding. I was not here for your discussion with Senator 
Bennett about, the withdrawals and the monuments. Of course, 
we're always with our antennas up in Alaska, after ANILCA and a 
designation in my State of some 47 million acres--32 million of 
which were wilderness--one-sixth the acreage of our State was 
put into withdrawal status on top of the other Federal lands 
that we already have. So we have held up as--the ``no more'' 
clause that is contained within that, we're saying, ``OK, we 
have plenty of areas within the State that are preserved, and 
protected. When we see suggestions whether it's the Bristol Bay 
Region or Teshapuk Lake or the Iditarod Trail that maybe, on 
somebody's list somewhere it causes absolute anxiety.
    I'm trying to understand, as you talk about the Treasured 
Landscapes, understand what the definition is of the Treasured 
Landscapes program, is this something that has been contained 
in prior budgets and was just named under a different category? 
Is this a brand-new initiative within the administration? How 
you came to be at this juncture with Treasured Landscapes? What 
will it mean to me in my State, for instance?
    Secretary Salazar. Senator Murkowski, what we hope to do is 
to engage in the conversation with Alaskans, similar to the 
conversation we hope to engage in New Mexico, Utah, Louisiana 
and other places about what places are special and what kinds 
of things do we need to do to enhance those efforts. In 
Louisiana it may be the Mississippi, in Utah, it may be the San 
Juan Wilderness area.
    It is a label, frankly, probably out of my head, put on the 
conservation agenda for this country. But I do think we do need 
to have a 21st century conservation agenda, and one of the 
principles of the development of that agenda is making sure 
that we have the local input as we move forward. It is 
something that will take shape over time.
    I suppose the way that I would define the Great Outdoors 
America agenda is we took our first step when this U.S. 
Congress in its first session in this Congress passed the 2009 
Omnibus Public Lands bill. That legislation created 2 million 
acres of wilderness, 1,200 acres of wild and scenic rivers, 
several national parks units, a number of water rights 
restoration and settlement efforts around the country, and I 
would say that's chapter one. Chapter 2 is still to be formed, 
and to be formed in consultation with all of you. So, that's 
the essence of it.
    Senator Murkowski. At that point in time, even though you 
have contained within the budget a little over $50 million to, 
it says, ''Enhance operations and maintain the Nation's 
Treasured Landscapes,`` we really haven't defined where they 
are or what might be required to operate or maintain?
    Secretary Salazar. Everything that is in this budget, 
essentially, has been defined as a project. For example, there 
is money in this budget under what I would call Treasured 
Landscapes that will deal with Gulf Coast restoration. There's 
money in this budget for the Great Lakes restoration and the 
Chesapeake Bay restoration, and the San Francisco Bay Delta 
effort that we have underway there. Those would all fall under 
that rubric.
    So the money that is included in here is tied in to 
specific initiatives that have come out of the bureaus and I'd 
be happy to sit down and go over each of those, you know, 
whatever it is that ties into Alaska, which I don't have off 
the top of my head right now, but I'd be happy to sit down with 
you----
    Senator Murkowski. The only 2 that have come to my 
attention are Teshapuk Lake and the Bristol Bay region. Do you 
know if those are being considered for Treasured Landscape 
designation or status?
    Secretary Salazar. With respect to Alaska, I would imagine 
that we have Denali National Park, obviously, and trying to do 
some additional things there, as have done in investments from 
the Recovery Act----
    Senator Murkowski. Right, park expansion.
    Secretary Salazar [continuing]. Some of the great resources 
that Alaska has, I think, Alaska--as you, I think, often refer 
to it as, sort of, America's Last Frontier and has huge 
ecological resources up there that I think require us to make 
sure that we're doing right by the Nation as we move forward in 
Alaska, but knowing, as well, that when you're dealing with 
Alaska, it's important to work with you and with Senator 
Begich--we will be working closely with you on that.
    We have no--we have no direction from the White House to 
move forward with any monument designation, and that's true for 
Alaska, as it is for Utah, as it is for any of the States 
represented on this committee.
    Senator Murkowski. OK. I'd like to work with you to better 
understand that. As I mentioned, there's a little bit of 
anxiousness or anxiety that something may be going on.
    I appreciate your statement, initially, to the chairman 
about, you know, there's no hidden agenda, here, and I think 
the opportunities that we will have to be engaged in discussion 
about this, so that we can let folks know back up in the State 
clearly what's going on, I think that that helps.
    Secretary Salazar. Can I spend just a minute on this 
Treasured Landscapes issue?
    Senator Murkowski. Please.
    Secretary Salazar. It's labeled Treasured Landscapes and I 
thought it was a pretty good label when I took over the 
Secretary of the Interior, and I'll tell you where it came 
from: the conversation with what I think are the 3 founders, 
along with Bobby Kennedy and President Kennedy and Stuart Udall 
on the Land and Water Conservation Fund. It was early on, I 
think I had been--I still was, maybe a U.S. Senator when I met 
with Stuart Udall, probably in this room, back, like, right 
there. We had a conversation about the Land and Water 
Conservation Fund and what that might mean in the 21st century.
    So, I thought about it and I thought, ''Why don't we put it 
under this rubric of Treasured Landscapes? What ought we be 
doing in this 21st century when we look at the rivers and the 
lakes that Senator Shaheen and Senator Landrieu were talking 
about? What ought we be doing with respect to these areas, such 
as the San Juan Wilderness Area which Senator Bennett has been 
working on? We haven't really had a coherent, coordinated 
approach to working on these things.`` So, I put the rubric on 
them as Treasured Landscapes.
    Now, how ultimately that will be defined will be something 
that we'll work on together as we move forward in this year. I 
have said publicly--and this is a Ken Salazar position--that I 
do believe that the Land and Water Conservation Fund 
essentially has been robbed, because the original intention of 
President Kennedy and those five people who suggested the Land 
and Water Conservation Fund was that there would be a trust 
fund that would be created that would essentially help us deal 
with these conservation issues as our Nation continued to grow. 
If you think about the population growth in the United States 
of America from where it was in 1960 to where it is now in 
2010, and you look at the other kinds of issues that we are 
facing, it seems to me that it is an important conversation and 
an important national dialog that we ought to have.
    We will have that dialog as the year moves on and there 
will be more specifics that we will be sharing with all of you, 
but I can guarantee you this--that it will happen with all of 
you, OK? There will not be surprises, there, in terms of where 
we move.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    I really wanted to just stay around this morning to, again, 
recognize and appreciate your support that you've indicated on 
a number of occasions this morning for the Land and Water 
Conservation Fund. As so many people who have talked about it 
have indicated, this is a critical program for all of our 
States and it makes a huge difference. You know, I've really 
appreciated the funding that you've put in this budget for the 
Silvio O. Conte Reserve, that's a project that involves 4 
States, it's very important to New Hampshire.
    Unfortunately, because the Land and Water Conservation Fund 
is not fully funded you were not able to fund a project up at 
Lake Umbagog, which is in Northern New Hampshire, it's the 
headwaters for the Androscoggin River that flows through New 
Hampshire and Maine and to the Atlantic; it's a very 
important--preserving the land around Lake Umbagog is going to 
be very important for future generations and for the wildlife 
in that area.
    If we are able to better fund LWCF, it will make a huge 
difference. I certainly support the Chairman's legislation to 
help do that.
    I wanted to add a final point that you may want to comment 
on. We've talked a lot this morning about the economic impacts 
of this budget and the programs and conservation efforts that 
you do at the Department of the Interior and, in some cases, 
there are tradeoffs to that. But, I just want to point out 
that, according to the Outdoor Industry Foundation in New 
Hampshire, that outdoor recreation--so the kinds of projects 
that are supported by the programs through the Department of 
the Interior--supports 53,000 jobs in New Hampshire, generates 
$260 million in annual State tax revenue, produces about $4 
billion in retail sales and services across New Hampshire which 
is about 8 percent of our Gross State Product.
    So, these conservation efforts are just about protecting, 
as we all know, about protecting the landscape for us to gaze 
at. They're about protecting it so that we can use it. There's 
huge economic benefits to that.
    So, I just wanted to, again, thank you for your efforts and 
say, hopefully, we can stop robbing LWCF so that we can support 
more of these projects in the future.
    Secretary Salazar. If I may, Senator Bingaman, just a quick 
comment on that. I think one of the realities is that not 
enough members in Washington, DC, get what you get. That is 
that what we do with respect to conservation of these outdoor 
resources are a huge economic generator.
    I know the West better than I do New Hampshire, but I would 
imagine that the tourism that comes into Zion National Park, 
the 11 million people who come to Montana in any 1 year. The 
State of Montana has a population of only a million. So, the 
economic impact in all of these States of what we do with 
respect to the outdoor resources is one that ultimately is not 
looked at a lot. So that was one of the reasons why I had the 
economists at the Department of the Interior produce the first 
economic analysis of the Department, because there's a direct 
nexus to jobs and I think the outdoor recreation industry has 
it right when they say 6-point-some million jobs are directly 
attributed to what we do in the outdoors.
    Senator Shaheen. Thank you.
    The Chairman. Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman.
    I appreciate the figures you gave us, Mr. Secretary, about 
the increases in oil and gas leases. Senator Barrasso said that 
hadn't happened in Wyoming, and I have to point out, it hasn't 
happened in Utah. Let me give you some numbers and get some 
reaction.
    For--between 2006 and 2009, the average quarterly lease 
sale netted $8 million, half of that goes to the--in royalties. 
Half of that goes to the State and half of that goes to the 
Federal Government. In a State where they're having very tough 
budget problems right now, that's money that we can use.
    Just a week ago, on the 23rd of February, BLM held an oil 
and gas lease sale, and only 4 parcels were offered. Only one 
sold. The total revenue from the sale was $6,300. You split 
$6,300 between the State and the Feds and compare that to $8 
million, which was the average before you put in place these 
new regulations about reviewing these things.
    My State legislature and Governor get very concerned about 
the amount of revenue that is lost that they have been used to 
getting with respect to this. You made a comment--or I guess it 
was Senator Udall made a comment about bringing certainty to 
this whole thing, and that businesses thrive on certainty.
    Just this last week, I had people who do the drilling in 
Utah in my office talking about the uncertainty that has come 
about, and contrasting it to drilling on Federal lands and 
drilling on State lands.
    Of course, you know, being a Senator from Western States 
all about State trust lands, and how State lands have been 
different.
    I was told that the period of time to get a lease approved 
on State land is 60 days. The period of time to get a lease 
approved on Federal land--I don't know where they got this 
figure but I'm sure they could get back at--550 days. When you 
see this dramatic drop off in the number of leases offered and 
the dramatic drop off in revenue available to the State--let 
alone the Federal Government--and the dramatic increase in time 
necessary to get to a lease, you have to ask the question, 
which I'm asking you now, have you done any studies about the 
economic impact of the new rules you've put in place to slow 
everything down?
    Secretary Salazar. Senator Bennett, I appreciate the 
question very much. I will tell you, even as recently as late 
yesterday afternoon, I was meeting with county Commissioners 
from Utah, as well as IPAMS--not exactly a friendly crowd, if 
you will, in terms of some of these initiatives that you're 
alluding to--but having a conversation with them about how can 
we do things better. We will have Director Bob Abbey, at BLM, 
go out and have additional meetings to see how we can do things 
better.
    To respond, overall, to what I think is the thrust of your 
question that, essentially, it's our doing things differently 
in this administration, I think you would assert is having a 
decline in all of this economic activity in terms of revenue 
generation. I, with all due respect, Senator Bennett, would beg 
to differ. I think it's the economic times that we have been 
through and the low price of natural gas that has created the 
lack of interest in additional lease lands, and that's why we 
end up having, not only thousands, but literally millions upon 
millions of acres that are out there, that have already been 
leased, both on the onshore as well as the offshore, that 
aren't being developed. Part of the reason they're not being 
developed is where the price of oil and natural gas have been.
    So, it's the overall economics that have driven down the 
revenue numbers that you were alluding to, in my view, and not 
the changes that we brought about--bring about--to create a 
more streamlined and certain process with respect to oil and 
gas leasing.
    But as I said in an earlier part of the testimony here this 
morning, I don't pretend to know that we are the holders of 
total wisdom relative to how we ought to be regulating our 
public lands and oil and gas. So, if there are better ways in 
which we ought to be doing what we're doing, we are listening. 
That's why Assistant Secretary Wilma Lewis and Director Bob 
Abbey, as well as myself and Deputy Secretary David Hayes, will 
be having additional meetings to understand what the real 
impact is of our new rules on the ground.
    Senator Bennett. I accept your comment about the price of 
natural gas. I think that's a legitimate comment and a 
legitimate reason why things will be down from where they were.
    But I would just have you--as you go through the process 
you've just described, and I'm grateful to you for describing 
your willingness to do that--compare the willingness and the 
ability of the State to produce a lease in 60 days, and get it 
through and the bureaucracy, or whatever it might be, that goes 
on with respect to doing the same thing on Federal lands.
    The people who are involved in these leases tell me the 
folks on the ground in Utah in the BLM office in Utah, are 
terrific. That it is other things that slow everything down. 
You're meeting with people--County Commissioners and IPAMs and 
others--to talk about what those other things might be, is very 
much welcome.
    Thank you.
    The Chairman. I see Senator Menendez has arrived and has 
not had a chance to ask any questions. Why don't I call on him, 
and then Senator Landrieu, and then if we still want to have a 
third round, we could, I guess, after that.
    But go ahead, Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    I thank my colleague from Louisiana for her courtesy.
    Mr. Secretary, always good to see you--I'm glad you're 
smiling. I see good things in the budget proposal--the new 
Energy Frontier, the climate change adaptation, the Treasured 
Landscapes--I think those are all great initiatives and I want 
to salute you, I look forward to trying to be helpful in the 
process.
    But I do have a couple of questions of things I'm concerned 
about. We have a drilling contractor working in the U.S. waters 
that worked on the rig that blew off the coast of Australia 
last year, which worries me, and that's why I wrote you in 
November to ask you to launch an investigation into the safety 
of Sea Drill Limited's operations off our shorelines. I 
received a letter stating that MMS is going to undertake such a 
review, but I have not heard the results.
    So, one is, I'd like to know when we can expect those 
answers?
    Secretary Salazar. As a result of your request, Senator 
Menendez, MMS was asked to provide technical expertise to 
review the cause of the oil spill, according to the note Pam 
just handed me. The MMS has engineers and other technical 
experts involved in the investigation, and the investigation is 
not yet complete.
    But, if I may, I think that----
    Senator Menendez. Do we have a sense of timeframe?
    Secretary Salazar. I can get that--I will get that for you, 
Senator Menendez, on the completion date.
    Senator Menendez. I'd appreciate that.
    Now we see reports from a whistle-blower that BP's enormous 
Atlantis platform in the Gulf of Mexico is lacking the proper 
engineering and safety documentation which MMS appears to be 
downplaying. You know, how--how, you know, if this advocacy for 
offshore drilling is going to continue, then it just seems to 
me the question is, what type of oversight are we going to have 
to make sure that all of the, you know, aspirations that are 
out there, that, ''Oh, we have all of the greatest engineering, 
all of this is environmentally safe,`` and yet, you know, you 
have Sea Drill Limited's operation and what happened there, you 
have this information about Atlantis--what is MMS doing to 
ensure that, in fact, we have the--those safety precautions to 
make sure that, you know, we don't have risks?
    Secretary Salazar. Let me, Senator Menendez, first let me 
say we take our job very seriously in terms of policing what 
happens in the offshore--I have visited the rigs in the Gulf 
Coast, for example, to see what our employees are doing to 
monitor what exactly is going on and what our--what we would do 
if there was a spill response.
    I think when you look at the record of what we have done 
with offshore oil and gas production, we have a very good 
record. That does not mean that it is a perfect record, but it 
is a very good record.
    Over the last years, MMS has conducted over 34 research 
efforts into looking at how we respond to oil and gas spills 
that might occur, continuing to further our knowledge about how 
we manage these issues in the waters. There are huge 
differences, for example, there are huge differences between 
how you respond to an oil and gas leak or spill in the Gulf of 
Mexico than you would in some places in Alaska, in the Arctic. 
So, you have to look at issue such as the environment, issues 
such as the infrastructure and the availability to be able to 
respond if some catastrophe like that were to occur.
    But I will just say that we are aware that there are 
environmental risks when you do oil and gas development in the 
ocean waters, and that we are doing everything we can to 
minimize the potential exposure.
    Senator Menendez. As you know, I have a real concerns about 
what is envisioned in the outer continental shelf, certainly 
along the East Coast shoreline. Those concerns--to both our 
environment and our economies in States like New Jersey for 
which our tourism industry is the second-largest driver of our 
economy--we can not put it at risk. You and I have talked about 
that when you were a Senator, you and I have talked about that 
in your confirmation hearing, and you and I have talked about 
that since you became the Secretary.
    So, these instances drive me to be increasingly concerned 
about this drive for opening up the outer continental shelf and 
I just look forward to the answers on, from MMS.
    Two final things. One is, I appreciate what you have done 
in both--in Ellis Island, opening up the crown of the Statue of 
Liberty. I'm pleased to see that the budget has $25 million 
allocated for maintenance work on the Statue of Liberty and I 
want to applaud you for that tremendous work.
    But I don't want us to forget about the other parts of 
Ellis Island that need to be preserved. You had an opportunity 
to see some of the old hospital buildings on the New Jersey 
side of the Island. Does the Department support funding to 
refurbish those important buildings? We are trying to work with 
all of the stakeholders to forge a plan that creates a public/
private partnership, here, with institutions like Save Ellis 
Island. I hope--we've had a little challenge in moving forward, 
there--I'd hope we'd see greater progress, we haven't. It's 
tough to raise, you know, moneys to help preserve when we can't 
get the partnership that we are looking for.
    So, I hope, based upon all of your commitments that you've 
already made that we could go to the final step and be able to 
achieve that. So, if you could answer that question for me.
    Then, very finally, offshore wind. You know, I appreciate 
that you came down to New Jersey, there are some of the leases 
that are extended--established--there. But from everything we 
hear from the private sector, there's a suggestion that this 
could take anywhere between 7 and 10 years in the process.
    I've heard that you're one of those advocates of trying to 
consolidate, maybe one-stop shopping or some other efforts to 
truncate that time period somewhat so that there can be real 
investments made at the end of the day, and I'd just like to 
get your sense of that.
    Secretary Salazar. On 2 of your points, Senator Menendez, 
first there would be nothing more important to me, personally, 
than frankly, getting Ellis Island totally restored and open it 
to tell America's story on immigration, and I think that's one 
of the jobs that I have as the Secretary of the Department is 
telling America's story, and you can't tell America's story 
completely unless you talk about immigration and Ellis Island, 
I think, is ground zero where most Americans can trace their 
roots back to their ancestors coming through Ellis Island.
    So, we will continue to work on it, it is an expensive 
project, we have put in $10 million into this budget by my 
decision to move forward with the partnership, and I hope that 
we could do something there similar to what we did on the 
Statue of Liberty, where we created a public/private 
partnerships that ultimately ended up putting in hundreds of 
millions of dollars into its restoration.
    We have other projects like that that we'll be working on, 
for example, here at the National Mall. But, Ellis Island, for 
me, remains at the top of the list of priorities for that--for 
those kinds of initiatives.
    With respect to Atlantic offshore wind, I have met with the 
Governors from all of the States on the Atlantic. I think, 
today, there is huge potential for us to stand up the offshore 
wind in the Atlantic. We have seen what the U.K. and Denmark 
and other places have already done with offshore wind and there 
is tremendous interest on the part of the private sector and 
the States for us to move forward, so therefore I am personally 
putting a significant amount of my time in.
    One of the areas that we are looking at, in depth, is how 
we can shorten up the process. It is, in my mind, completely 
unacceptable to have a developer of an oil and gas wind farm 
having to wait 7 to 9 years to get to final permitting. That's 
not going to happen. We're going to do within--we are looking 
at existing authority, relative to how we can fast track 
offshore wind projects, and to the extent that we come up 
against barriers, we will come to this Congress and we will 
ask, Senator, for your support in getting some of those 
barriers out of the way.
    It is interesting that in the onshore, we are currently--
under our onshore authorities--fast tracking about 5,000 
megawatts--5,000 megawatts--of renewable energy power from 
solar, wind and geothermal alone. Because of the fast tracking 
process that we have been able to put into place, those 
projects, we hope, will be permitted by December of this year. 
We need to move with the same kind of acceleration in the 
offshore.
    Senator Menendez. Thank you.
    Thank you very much for your answers.
    Senator Landrieu [presiding]. Thank you.
    I was asked by the Chairman to wrap up this after my next 
line of questioning.
    Mr. Secretary, you've been very generous with your time, 
thank you very much.
    With all due respect to my colleague, the Senator from New 
Jersey who has not been a supporter of offshore oil and gas 
drilling, and we sit next to each other, as you can see, and I 
am--I want to call out that the West Atlas rig that blew and 
caused a terrible spill was not off of our coast, it wasn't 
anywhere near our coast, if was off the coast of Australia. It 
was a very isolated incident. While he's asked you to 
investigate whether those same individuals might be involved in 
some drilling off of our coast, my understanding is they 
wouldn't have ever got a permit to drill anywhere off of our 
coast under current rules and regulations.
    So, I'm interested in the outcome of what your look into 
that is, Mr. Secretary, but as I've tried to explain to my 
colleague from New Jersey, that this industry has advanced so 
significantly since the 1960s. I think I demonstrated at our 
last meeting that, of all of the spills that have occurred in 
the entire oceans in the last 30 years, you could contain it in 
the Reflecting Pool between here and the Washington Monument. I 
mean, just the gallons are so miniscule compared to the 
benefits of U.S. strength and security, the benefits of job 
creation and energy security.
    So, while there are risks associated with everything, I 
think you understand that they are quite, quite minimal.
    I want to go back to the Wild Horse Program and this will 
be my last few minutes of questioning. Mr. Secretary, in your 
opening statement, you say that you are honored, of course, to 
serve as the 50th Secretary of the Interior and you manage over 
500 million acres. One in 5 acres of land in the United States 
is actually managed by the Department of the Interior.
    I don't know if you're aware that, in 1971, the Interior 
Department set aside a small percentage--53 million acres--for 
wild horses. I say ``set aside,'' it's not for wild horses, 
only, the were one of many occupants of that land. Do you 
realize that we have lost 19 million of those 53 million? What 
is your plan to restore some of that acreage to these treasured 
herds? If you could comment on that?
    Secretary Salazar. Senator Landrieu, first let me start by 
saying that I share with you the love of horses. They have been 
a part of my life almost since I was born. So--and I know your 
passion for protecting the horses.
    We have a huge problem on our public lands because we have 
more horses than, frankly, the range can carry, about 30,000 
too many horses and burrows. So what we have to do is come up 
with a solution. Because this is such a passionate and 
emotional issue, solutions have eluded the Department of the 
Interior and the Bureau of Land Management now for decades.
    So, my hope is that we'll be able to find a solution so 
that we can have the number of horses and burrows that can 
carry the herds that are consistent with the following 
principles.
    The first is the protection of the horses, because right 
now we have a circumstance where horses, in my view, end up 
sometimes starving to death and being in conditions that are 
very inhumane, simply because of the fact that there isn't 
enough there for them to eat.
    Second of all, we have to be also aware of the importance 
of protecting the taxpayer, here, and coming up with a long-
term solution that addresses this issue so we're not just 
kicking the problem down the road for somebody else to be 
dealing with in 10 years.
    Third, I'd like us to figure out a way of protecting the 
heritage that I think is symbolic of the wild horse. Senator 
Nelson reminded me yesterday in a meeting that we had where we 
were talking at St. Augustine and telling me that it was 
through Florida where horses were first introduced by the 
Spanish and so the fact that horses are not native to the 
United States and have inhabited lots of places in this county, 
is also something that we ought to keep in mind as we strive 
for a solution.
    I'm not wedded to my proposal, Senator Landrieu, and if 
there are other people who have better ideas, we ought to 
figure out a way of moving forward with those ideas. I just 
don't think that this is a problem that we kick down the road, 
and ask for more money every year, to basically hold these 
horses in short-term holding facilities, which are very 
expensive.
    Senator Landrieu. OK. I appreciate that, and to conclude, I 
want to work with you on a very cost-effective solution for 
this, because the current system that we have, I believe, is 
broken, it's expensive, and I don't think the taxpayers will 
sustain it.
    No. 2, I realize that there are some that say there is not 
enough land for the horses. But we have 500 million acres, 
they're now down to a measly, you know, 31 million--what's, you 
know, what's happening in the other 470 million acres?
    So, while, you know, that is one argument, looking at the 
number of acres that we have to manage and the small number 
that they are actually allowed to roam on, I have a real 
question about that.
    Also the--the round-ups, the expense of the round-ups, the 
timing of the round-ups, in mid-winter, the cruelty of moving 
large herds down mountains in snow and ice at times of the year 
that--I've had this discussion with some of your staffers--is 
very troubling.
    So, I look forward to working with you, and I thank you 
that you're not wedded. Because I think that the 2 of us, and 
others, can find a solution that's cost-effective, that's 
humane, that's exciting, and that gives opportunities like 
Senator Shaheen said, for tourism and recreation. These herds 
are great assets for the country, and if we work together we 
can find a solution that's much more cost-effective and much 
more humane.
    So, thank you for your attention.
    I believe, Senator Barrasso, if you have--the Senator--the 
Secretary has been very patient and it's 5 minutes after 12----
    Senator Barrasso. Just one----
    Senator Landrieu. One more question and then I'm going to 
close the meeting.
    Senator Barrasso [continuing]. One quick question because 
it's something that--thank you very much.
    Senator Landrieu. OK.
    Senator Barrasso. I appreciate that.
    Senator Landrieu. Go ahead.
    Senator Barrasso [continuing]. Senator Landrieu.
    Just, Mr. Secretary, if I could, because I was watching 
your comments and I think to Senator Bennett, you said that you 
were going to then go and kind of listen and travel around to 
see how these new regulations, what impact these are going to 
have--or these have had. I think this is just one of these 
examples of why people in the West are concerned, because the 
regulations are already in place--these regulations are 
impacting the red, white, and blue jobs that have powered our 
country and are such good jobs in our State.
    So, it just seems that maybe we could have had this 
discussion before the regulations went in place, and I would 
encourage and invite you to Pinedale, Rock Springs, Casper, 
Wyoming--to see the specifics of the impacts of these and I'd 
be happy to go with you to those locations.
    But, it just struck me that it might have been a better--
listen first and then implement, rather than implement and then 
see what the impacts are going to be of the administration's 
positions. I don't know if you like to comment on that, Mr. 
Secretary.
    Senator Landrieu. Can we give the Secretary the last word?
    Senator Barrasso. Yes.
    Senator Landrieu. All right.
    Mr. Secretary.
    Secretary Salazar. You know, we frankly did make changes 
from the last administration because--and we've had this 
conversation before, Senator Barrasso--but it seemed to us that 
we could do a much better job in terms of managing our public 
lands by being proactive relative to giving direction to where 
we ought to be leasing for oil and gas and also providing 
certainty that avoids, then the litigation that now is coming 
with about 48 percent of the leases that were issues in the 
last year. So that's what we've been searching for. Have 
engaged many in--out in the West, our employees as well as the 
public on how we move forward. It may not be a perfect place 
where we landed and some of our efforts are still very much 
draft form, so we look forward to trying to get to a place 
where there can be agreement.
    Interestingly, with the IPAMs organization yesterday, they 
had a number of different leases and acreages that they were 
concerned about. Some of them may not be problematical, some of 
them may be problematical, and there may be issues that we 
can't really resolve and can't move forward with.
    What I've asked them to do is to put together specifics, 
because if I know what the specifics are in the Rocky Mountain 
West where they operate, I can have Assistant Secretary Wilma 
Lewis and Bob Abbey move forward and determine which ones we 
might be able to move on, and which ones we can't.
    So, I always think there's good things that can come from 
dialog and I think your suggestion that we have these listening 
sessions is a very important one.
    Senator Barrasso. Thank you, Mr. Secretary.
    Thank you, Madame Chairman.
    Senator Landrieu. Thank you, Mr. Secretary.
    This hearing is adjourned.
    [Whereupon, the hearing was adjourned at 12:05 p.m.]

    [The following statement was received for the record.]

   Statement of Joyce Blumenshine, Committee Chair, Illinois Chapter 
                 Sierra Club Mining Issues, Peoria, IL

    Thank you for the opportunity to comment regarding budget concerns 
for the Office of Surface Mining within the Department of Interior 
Budget. The lack of adequate funding for the Office of Surface Mining 
(OSM) will particularly impair their ability to enforce the laws and 
regulations they are established to enforce and the state programs 
supported by the agency. The budget as cut will not allow OSM to 
maintain their essential role and mandate in the federal government 
enforcement of mine regulations. Congress must add more funding to the 
enforcement budget for OSM.
    Lack of adequate funding for coal site inspections and oversight of 
regulatory programs will have serious consequences for Illinois. Our 
state is approximately $13 billion in arrears; funding cuts for state 
agencies have been a regular pattern; more cuts are predicted. For the 
last several years, state governance here has made regular fund sweeps 
of departments that have fees for various programs. Even if our state 
mining division could add fees, it would take years to get new fees in 
place. In the current economic climate this would likely be an uphill 
battle. There is no immediate option for additional funding to maintain 
necessary oversight and enforcement programs. Congress must add more 
funding to the enforcement budget for OSM.
    Adequate funding for oversight and enforcement of mining 
regulations is needed more than ever. Longwall coal mining is being 
expanded in the flat, highly productive Illinois prairie agricultural 
lands with zero to 4% slope and it is essential that oversight of these 
mines is done. At risk are hundreds of thousands of acres of our 
national resource farmlands, which, if not reclaimed as planned, will 
result in the impairment or loss of agricultural production for decades 
to come. A new longwall mine of over 4,000 acres is under construction 
in the heart of flat farm country. A closed longwall mine, with known 
concerns for delays in reclamation, has been reopened. As many as seven 
new coal mine applications may need to be monitored by the Illinois 
Department of Natural Resources Office of Mines and Minerals. These are 
huge demands on a department which has had large numbers of staff cuts 
do to years of state budget cuts. It is essential that OSM receive more 
funding for their enforcement budget, as the challenges and needs for 
oversight and enforcement, as seen from the states, has not diminished 
but has increased.
    As a long-time resident of Illinois who has been adversely impacted 
by coal mine permit approvals, I respectfully state that far greater 
active oversight of state mining programs is needed. OSM should be 
effective in its authorized role and should be the leading federal 
agency in the enforcement of mining regulations. Federal authority must 
be exerted over state programs that are interpreting SMCRA regulations 
in lax and convoluted ways. Adequate funding for OSM oversight and 
enforcement programs must be restored.
    The following examples are listed to show why Congress must 
increase OSM funding levels for oversight and enforcement for state 
programs. Each of these issues is related to aspects of the Surface 
Mining Control and Reclamation Act (SMCRA):

1) Concerns Regarding Approximate Original Contour (AOC)
    In Illinois, citizen concerns for adequate oversight and regulation 
of longwall mining on flat farmland is increasing.

          A) longwall mining reclamation delays and difficulties on 
        flat, zero to five percent land. Longwall mining sinks or 
        subsides the surface of the ground from four to six feet, after 
        the coal seam is removed. In flat farmland, this creates a 
        bathtub effect, as the room and pillar shafts used to reach the 
        longwall area are not subsided and remain high when the ground 
        between sinks from longwall mining. Longwall panels are often 
        three miles long and 1200 or so feet wide. Highly productive 
        farmland with less than a 5% slope languished years after 
        longwall mining without reclamation, until the coal mine was 
        purchased by a different company. Part of the highest and best 
        technology used in Illinois for such reclamation is ditches and 
        larger ditches to drain longwall subsided farm fields. No 
        agency is monitoring how many acres of farmland are being taken 
        out of production due to this ditching. No agency is monitoring 
        topsoil erosion caused by this ditching. Over 200,000 acres are 
        at risk from longwall mining in one county alone.
          B) coal waste impoundments remaining on the landscape after 
        mines are closed. It is difficult to understand how a hundreds-
        of-feet-high high coal waste impoundment standing above the 
        flat or gently rolling Illinois lands can be considered to meet 
        AOC. While citizens have attempted to point out that SMCRA 
        clearly states that land is to be restored to a condition 
        capable of supporting pre-mining uses, or higher and better 
        uses, and that no permanent structures are to be left, coal 
        waste impoundments are allowed to remain after mines are 
        closed. A specific example is the Monterey #2 Mine, Clinton 
        County, where the coal waste impoundment has contaminated the 
        Pearl sand aquifer.

2) Concerns for Cumulative Hydrological Impact Assessment (CHIA)
    The OSM Alton Field Division has listed improvements needed 
regarding how Illinois handles their CHIA reviews for mine permits. 
Concerns for this issue are already documented. Without adequate 
funding for oversight and enforcement, the future of any improvements 
in this issue could be doubtful. CHIA assessments are a key provision 
of mine permit approvals and protecting water resources.

3) Concerns that the Stream Buffer Rule is Regularly Exempted
    OSM oversight of Stream Buffer Rule exemptions should require that 
Illinois reports all exemptions of the Stream Buffer rule to OSM. Loss 
of streams impacts area water supplies and future water resources for 
the nation. This is an issue that needs much more rigorous oversight by 
OSM, and it is questioned if Stream Buffer Rule exemptions should 
continue to be left up to state discretion.

4) Cursory Treatment of Endangered and Threatened Species (E&TS)
    Federally endangered Indiana Bats and other species are not being 
given the extent of protections that should be required under existing 
regulations. For example, a surface coal mine with a buffer area 
containing an Indiana Bat roost tree and live captured bats using a 
major riparian corridor had hundreds of water permit violations over 
several years and still received a renewal of their mining permit.

5) Failure to Follow Established Laws Regarding LUMP
    Illinois citizens have filed in court regarding multiple and 
flagrant state errors in a Lands Unsuitable to Mine Petition (LUMP) 
processing. Some of these issues were due to lack of state funding to 
follow through with the requirements within the law.

6) Farmland Reclamation Exemptions Regularly Issued
    Mining permit applications in Illinois regularly have hundreds of 
acres of farmland lost to mine operations. No agency is tracking the 
numbers of acres of farmland lost to coal processing facilities, waste 
piles, impoundments, or other mining impacts. There are additional 
issues of concern to Illinois citizens regarding oversight and 
regulation.
    While the examples supplied are issues of concern in Illinois to 
demonstrate the serious need for adequate funds for oversight and 
regulation, it is hoped the range of concerns will let Congress know 
that land and water issues are at stake affecting the long-term well 
being of the nation. Congress is asked to add more funding to the 
Office of Surface Mining budget for enforcement and oversight. These 
funds are greatly needed.


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

    [Responses to the following questions were not received at 
the time the hearing went to press:]

            Questions for Ken Salazar From Senator Bingaman

                      MINERALS MANAGEMENT SERVICE

    Question 1. How many acres of the OCS are under lease but not 
producing oil and gas? Please also provide any information available 
about the estimated oil and gas resources available in the unleased 
acres.
    Question 2. Please state for each of the last five years the total 
number of acres on the Outer Continental Shelf under lease, and the 
total production of oil and gas from those leased acres. To the extent 
you have estimated similar information for future years, please include 
those estimates as well.

          OFFICE OF SURFACE MINING RECLAMATION AND ENFORCEMENT

    Question 3. The previous Administration interpreted the Surface 
Mining Control and Reclamation Act Amendments of 2006 as prohibiting 
the use of previously unappropriated state share balance payments for 
abandoned hardrock mine reclamation in non-certified states. I wrote to 
you last year regarding this problem and Assistant Secretary Wilma 
Lewis responded, committing to work with us on a legislative solution. 
I have introduced a bill (S. 2830) which has the bi-partisan support of 
the Senators from Colorado, Utah and New Mexico. Now it appears that 
the Administration may have embraced this policy which will impede 
hardrock mine reclamation in its Budget request.
    Will you work with me for the passage of S. 2830 to address this 
problem?
    Question 4. The Surface Mining Control and Reclamation Act 
Amendments of 2006 provide for the repayment of unappropriated state 
and tribal share balances over seven years. Please provide a chart 
showing the expected annual payments of unappropriated balances to each 
state and tribe under these provisions.
    Question 5. The Budget proposes to eliminate payments to certified 
states and tribes. This will hit the Navajo Nation, which I understand 
uses the funds for public facilities and the reclamation of 
contaminated uranium mine sites, particularly hard. Have you engaged in 
a government-to-government consultation regarding the elimination of 
this funding with the Navajo Nation consistent with the trust 
responsibility?
    Question 6. There has been concern over recent years regarding the 
level of funding for state regulatory grants. The Budget cuts federal 
funding for these grants and suggests that the state impose new fees on 
the coal industry. What level of user fee would be necessary to keep 
regulatory grants at the current level?
    Please provide a chart showing on a state-by-state basis the 
funding for the regulatory program over the past 10 years.
    Question 7. The SMCRA Amendments of 2006 provided that Indian 
Tribes can be granted primacy to administer the regulatory program 
under Title V on lands within their reservations. What is the status of 
implementation of this provision? Please describe your work with the 
Tribes with respect to regulatory primacy.
    Question 8. OSM is in the process of revising permanent program 
regulations relating to excess spoil and stream buffer zones. Please 
provide your time table for this rulemaking.
    Question 9. New Mexico and the Navajo Nation have serious needs 
with respect to the reclamation of abandoned uranium mines, many of 
which were developed initially to provide uranium for our Nation's 
weapons program.
    Particularly given the proposal in the Budget to change the law to 
make Abandoned Mine Land funds unavailable for hardrock reclamation by 
certified and non-certified states and tribes, is there money in the 
budget to address these reclamation needs?
    Will you work with me going forward to see what resources can be 
made available to address the reclamation of abandoned uranium mine 
sites?
    Question 10. While much recent attention has been focused on EPA 
and the Corps of Engineers, the Surface Mining Control and Reclamation 
Act vests you with broad authority to regulate mountaintop removal 
mining and valley fills. I seriously question the use of these 
techniques, and have substantial concerns over the long-term impacts of 
this form of mining. In January, GAO released a report relating to 
mountaintop removal mining, addressing financial assurances and long-
term oversight of these operations.
    What are your views of mountaintop removal mining? What steps will 
you take to address the long-term impacts? What are your views of GAO's 
findings?

                       BUREAU OF LAND MANAGEMENT

    Question 11. What is the total amount of funding for the oil and 
gas I&E program included in the request for FY11? Please provide a 
table showing the funding for this program (both requested and enacted) 
for the previous 10 fiscal years.
    I had requested funding for additional inspectors in the Farmington 
Field office. How many additional inspectors have been added to this 
office in each of the past five fiscal years?
    Are you planning to hire additional inspectors in offices where the 
workload is increasing due to coalbed methane production? Please 
provide specifics.
    Question 12. What is the total amount of requested funding for oil 
and gas NEPA compliance for FY11? Please provide a table showing the 
funding for NEPA compliance (both requested and enacted) for the 
previous 10 years.
    Question 13. What is the total backlog of APD's? Please provide a 
table showing the backlog over the last ten years and the number of 
APD's received, processed, and issued during each of the last ten 
years. Please display this information on a state-by-state basis.
    Question 14. How many acres administered by the Forest Service and 
the BLM have been leased for oil and gas development during each of the 
past ten fiscal years? Please display this on a state-by-state basis 
and by agency.
    Question 15. How many acres of lands administered by the Forest 
Service and the BLM in states west of the hundredth meridian have been 
under oil and gas lease in each of the past ten fiscal years? Please 
display by state and agency.
    How much acreage is under lease but not producing?
    Question 16. How many wells were started on federal lands (BLM and 
Forest Service) in each of the past 10 fiscal years? Please provide by 
state. Please also provide the number of completions per state per year 
on federal lands.
    Question 17. Please list the total number of new federal oil and 
gas leases by state by year. Please list the total number of federal 
oil and gas leases by state by year.
    Question 18. The Budget proposes an increase in Federal onshore 
royalties and also proposes various user fees for the oil and gas 
industry. GAO has concluded that ``the U.S. federal government receives 
one of the lowest government takes in the world'' for Federal oil and 
gas and gas resources owned by the public. GAO also found that 
``Interior could do more to encourage diligent development'' of its oil 
and gas resources. Just last week GAO released a report that indicated 
that the bond amount for oil and gas leases (which have not been 
updated for decades) may be inadequate.
    I am concerned that this work by GAO over the past few years may 
not have received the attention it deserved. Will you review these 
findings as you make decisions regarding the Federal Oil and Gas 
Leasing programs to ensure that the public gets a fair return on its 
resources and that we get timely oil and gas production from leased 
lands?
    Will you keep us advised as to any changes in statute that may be 
necessary to meet these goals?
    Question 19. What is the current level of funding and what level is 
proposed for fiscal year 2011 for the administration of renewable 
energy development on public lands? Please provide allocation by energy 
type.
    Question 20. Please describe all geothermal leasing activity, 
including date and state for all lease sales, subsequent to the 
Geothermal Steam Act amendments contained in the Energy Policy Act of 
2005. Please provide a table of lands showing acres under geothermal 
lease (and whether production is occurring) by state.
    Question 21. How many applications for solar rights-of-way are 
pending? How many applications for wind rights-of-way are pending? 
Please provide listings by state and location.
    Question 22. What is the time line for work on the Solar PEIS?
    Question 23. How many new mining claims have been located over the 
past 10 years? Please provide number of claims located by year.
    Please provide a table displaying the total number of mining claims 
in each state.
    Question 24. ORVs-BLM Travel Management Process--Off-road vehicle 
use has consistently been identified by the BLM as one of its top 
management and law enforcement challenges. The Bureau estimates it will 
take at least 20 years to complete ORV management plans and a recent 
GAO report found that 79% of BLM field units believed they cannot 
sustainably manage the ORV areas that already exist.
    How will the request to cut $8.2 million from resource management 
planning impact the BLM's ability to complete ORV management plans?
    How will the budget request for law enforcement operations impact 
the BLM's ability to enforce ORV regulations?
    What additional appropriation would be required to plan, implement, 
monitor and enforce off-road vehicle use plans at all BLM field units 
within the next five years?

                    UNITED STATES GEOLOGICAL SURVEY

    Question 25. What funds does the USGS propose to expend on each of 
the following ecosystem restoration efforts during FY 2011: California 
Bay-Delta; Everglades; Platte River; and Great Lakes?
    Question 26. Please describe what has been accomplished with the 
funding received to date for the U.S.-Mexico Transboundary Aquifer 
Assessment and why continued funding for the assessment was not 
included in the FY 2011 budget?
    Question 27. Please describe the plans for implementation of 
Section 11002 of P.L. 111-11 that requires a study of certain 
groundwater resources in New Mexico?
    Question 28. Please summarize the work being done to implement the 
SECURE Water Act, authorized by Section 9501 et seq. of P.L. 111-11?

                         BUREAU OF RECLAMATION

    Question 29. With the budget's inclusion of $10 million in the 
Bureau of Reclamation's budget and $6 million in the Bureau of Indian 
Affairs for the implementation of the Navajo Settlement and the 
construction of the Navajo-Gallup Project, will the Department be able 
to implement the settlement within the timeframe expected in the 
settlement legislation? Is the Department committed to continue to 
budget the amounts necessary to meet the existing deadlines?
    Question 30. The FY 2011 budget does not include any funding for 
the Eastern New Mexico Rural Water Supply Project authorized by Section 
9103 of P.L. 111-11. Please describe the criteria used for determining 
the budget allocations for the existing authorized rural water projects 
and how the lack of an existing water supply factors into the criteria.
    Question 31. The FY 2011 budget does not include any specific 
allocation of funding for the Rio Grande Pueblos' irrigation 
infrastructure study required by Section 9106 of P.L. 111-11. Please 
describe what Reclamation has done to implement the requirements of 
Section 9106, what the next steps will be and how Reclamation intends 
to fund additional progress.
    Question 32. What is the status of funding for the loan guarantee 
program authorized by the Rural Water Supply Act of 2006 (P.L. 109-
451)?
    Question 33. What is the status of Reclamation's efforts to develop 
rules or criteria for the Rural Water program?
    Question 34. What is the status of Reclamation's efforts to develop 
rules or criteria for the Title XVI program?

                        BUREAU OF INDIAN AFFAIRS

    Question 35. How much funding did the BIA provide to the Middle Rio 
Grande Conservancy District in FY 2009 and FY 2010 for operation, 
maintenance and betterment of irrigation facilities of the six Middle 
Rio Grande Pueblos? What specific work was performed with that funding? 
How much funding is recommended in the FY2011 budget?

                       OFFICE OF INSULAR AFFAIRS

Assistance to Territories
    Question 36. On page 1 of the Office of Insular Affairs' ``Green 
Book,'' the budget states that ``. . .American Samoa and the CNMI, are 
facing economic and fiscal difficulties.''
    What is the Department's plan for dealing with these difficulties? 
For example, are any legislative or funding initiatives being 
developed?
    Question 37. On page 11, the budget states that the Agency's goal 
is to ``Increase Economic Self-Sufficiency of Insular Areas'' and it 
then identifies improving financial management and increasing private 
sector employment as intermediate goals.
    Do OIA and each of the seven island jurisdictions have financial 
management improvement plans which describe the strategy for achieving 
this goal and identify the priority projects and activities needed to 
achieve it? If so, where are these plans available?
    Do OIA and the island jurisdictions maintain economic development 
plans which describe the islands' infrastructure needs and identify 
priority projects and the anticipated sources of funding? If so, where 
are these plans available?
    Do OIA and the island jurisdictions maintain economic development 
plans which describe the strategy for increasing private sector 
investment (employment) and identify the actions needed to achieve this 
goal such as macro-economic reforms (regulatory reform, tax reform, 
land reform, etc)? If so, where are these funds available?
    Question 38. On page 2, the budget states that OIA ``will pursue 
strategies that. . .lead to the adoption of renewable energy 
technologies,. . .'' However, the budget does not describe a strategy 
or identify any funding for promoting renewable energy.
    What is the FY2011 budget request, and the source of funding, for 
this activity?
    Is there a Plan for this initiative, and if so, could you provide a 
copy?
    Does OIA have any formal agreements with the Department of Energy 
to tap into their technical expertise for developing and implementing a 
plan to reduce the islands' fossil fuel dependence?
    Question 39. The budget proposes a new program, ``Empowering 
Insular Communities'' (EIC) at $5 million. It is designed to: 1) 
``strengthen the foundations for economic development in the islands by 
addressing challenges preventing reliable delivery of critical services 
needed to attract investment'', and 2) ``pursue economic development 
initiatives that encourage private sector investment. . .'' Under this 
program, islands could apply for EIC funding, but it appears that this 
program does not rely on any long-term planning.
    Can the islands apply for funding to meet these same infrastructure 
and economic development objectives through OIA's existing application-
based Infrastructure and General Technical Assistance programs?
    Applications for funding under the new program do not appear to be 
required to follow any existing infrastructure or economic development 
plans. Why not?
    Wouldn't it be more efficient and effective to improve 
infrastructure and promote economic development by implementing 
existing plans by funding the highest priority projects and activities 
in these plans?
    Question 40. The FY11 Budget proposes a substantial, 20 percent, 
reduction in funding for General Technical Assistance.
    Does this reflect a belief that there is a reduced need for the 
program?
    Question 41. On page 54, the breakout chart for General Technical 
Assistance shows that funding for 10 activities is ''TBD.'' One of 
these activities is the CNMI Initiative on Immigration, Labor and Law 
Enforcement.
    Given the need for OIA to continue to responding to concerns 
regarding the welfare and status of over 20,000 aliens in the CNMI, 
will you assure the Committee that FY10 and FY11 funding for the 
Initiative will not be reduced below the FY09 level?
    Question 42. In table format, please provide OIA's best estimates 
for the standard socio-economic metrics for each of the territories: 
population, unemployment, per capita income, government revenues and 
expenditures, and U.S. assistance as a percent of revenue.
    Question 43. P.L. 110-229 requires the U.S. Dept of Labor (DOL) to 
report on the CNMI's labor needs.
    Does OIA have an agreement with DOL to provide this information?
    What is the current estimated size of the CNMI private sector work 
force, how many of these jobs are held by alien workers, and what is 
the CNMI's projected workforce need for the end of the 5 year 
transition period?

                      COMPACTS OF FREE ASSOCIATION

    Question 44. The Compacts with the FSM and RMI call for 5-year 
reviews on the use of U.S. assistance and progress toward Compact 
program objectives.
    When do you expect these 5-year Reviews to be transmitted to the 
FSM and RMI for their consideration and comment?
    Question 45. Last year, several Members of Congress wrote to the 
Secretary urging a prompt and successful conclusion to the Rongelap 
Resettlement program.
    What actions have been taken in response to that letter?
    Would the Department support the use of RMI Compact health care and 
education sector grant funding to construct a school and dispensary on 
Rongelap?
    Question 46. Last year, several Members of Congress wrote to the 
Secretary requesting the development of policy options to respond to 
the impact of Compact migrants on health care and other public services 
in U.S. communities, particularly in Hawaii and Guam where migrants are 
concentrated.
    What actions have been taken in response to that letter, and what 
options have been developed?
    Question 47. On page 88, the budget includes ``a placeholder of 
$20.8 million'' for future financial assistance to Palau.
    When do you expect that the legislation extending financial 
assistance to Palau will be transmitted to Congress?
    Question 48. It is unlikely that Congress will be able to enact 
legislation to extend Palau's financial assistance in the short period 
of time between the transmittal of such legislation, and the end of 
FY2010.
    Does the Administration have a backup plan for providing financial 
assistance to Palau in the event this legislation is not enacted before 
Oct. 1 2010, and if so, what is the plan?
    Question 49. On page 93, the description of FSM health sector 
funding states that ``Despite the FSM's Strategic Development Plan's 
stated emphasis on primary healthcare, funding continued to follow the 
path of curative care.`` P.L. 108-188 also provides that U.S. health 
care assistance is to emphasize primary care.
    Why does DOI not use it's authority for directing and withholding 
Compact funding to assure that funding is focused on primary care, as 
required by law and as agreed to by the parties under the Compact?
    Question 50. What are the current OIA FTE vacancies in the Honolulu 
Compact Office and in the U.S. Embassies in the FSM and RMI, and when 
will these vacancies be filled?
    Question 51. On page 95, the budget states that, after 5 years, the 
FSM still lacks adequate plans and goals for the use of U.S. assistance 
for the Public Sector, Environment, and Private Sector Development 
Grants.
    Why has DOI not used its authority to direct and withhold grant 
funds until adequate plans and goals are in place before more funds are 
expended?
    Question 52. P.L. 108-188 requires that reasonable progress should 
be made toward the sector goals for each of the six sector grants under 
the FSM and RMI Compacts.
    Please summarize what the goal of each grant is, what the 
performance metric is, and whether reasonable progress has been made?
    For those sectors for which there is no performance metric, or no 
reasonable progress toward the sector goal, please describe the 
strategy and timing that OIA plans to use to achieve measurable 
progress in the future?

                        GENERAL DEPARTMENT-WIDE

    Question 53. In 2006, I wrote to former Secretary Norton with other 
senators (including then Senator Salazar) indicating our concern with 
her policies concerning the 1866 law known as R.S.2477, which 
authorized rights-of-way across public land. Specifically, we were 
concerned that those policies undermined protection for public lands by 
allowing States to make unsubstantiated claims through some of our most 
treasured public lands. As Secretary of the Interior, do you believe it 
is time to revisit former Secretary Norton's policies?

              Questions for Ken Salazar From Senator Wyden

    Question 1. I appreciated the information provided on pending 
timber sales by the Bureau of Land Management on pending sales and also 
discussed in the Interior budget hearing. However, the bottom line is 
that the volume of timber being offered in the near term in the Medford 
and Roseburg Districts are still way too low to keep the mills 
operating. My understanding is that Endangered Species Act 
consultations for the spotted owl remain the primary sticking point for 
a number of sales. I appreciate your effort to create interagency teams 
to work together to move through these issues, but it seems this is 
what is still tying up sales and those that are announced are producing 
very little volume because only the easiest sales in young even-aged 
plantations are able to get through consultation.
    What is being done to get the BLM and USFWS to work together to get 
more projects in the Medford and Roseburg Districts through the 
consultation process?
    Question 2. In the confirmation hearing of National Parks Director 
Jarvis I raised my concern with potential helicopter tours occurring 
over Crater Lake National Park. On December 15, 2009 my colleague 
Senator Lamar Alexander and I sent a letter to the National Park 
Service and the Federal Aviation Administration regarding the fact that 
no required national park air tour plans have been completed since the 
National Park Air Tour Management Act was passed in 2000. My 
understanding is that these plans are required before the Park Service 
can deny helicopter tours.
    What is the status of the Park Service's response?
    As Secretary, what steps are you taking to ensure that the law is 
judiciously executed so that American public can have the opportunity 
to enjoy natural sounds in the parks?
    Question 3. I'm pleased with the proposed increase in Land and 
Water Conservation Fund (LWCF). I am a cosponsor of legislation to 
fully fund this program. The lands acquired with these funds are 
important for better land management and protection of the very 
conservation areas that this Committee considers. These areas more 
effectively protect the values for which Congress designates them if 
inholdings and other priority land parcels can be acquired by the 
managing agency instead of sold to developers. Recreational access can 
be improved, clean water is maintained, and wildlife habitat remains 
intact. At the same time, the economic opportunities associated with 
that recreation can be enhanced. According to a report by the Outdoor 
Industry Foundation, active outdoor recreation contributes $730 billion 
annually to the U.S. economy and supports 6.5 million jobs across the 
country. In Oregon, the recreating public can better access places like 
the Crooked National Wild and Scenic River because LWCF provides the 
funding to ensure this public access, and the economy benefits as a 
result.
    Mr. Secretary, what can you tell us about the Agency's plans to 
continue investing in programs like the LWCF, which are critical to our 
economy, job growth, and strengthening local communities?
    Question 4. Last year, Congress passed, and the President signed 
into law, legislation reauthorizing the Fisheries Restoration and 
Irrigation Mitigation Act (FRIMA) as part of the Omnibus Public Lands 
Act, P.L. 111--11. FRIMA was established in 2000 and has been an 
important tool for addressing fish screening and fish passage needs in 
the four Pacific Northwest states. This cost-shared program, which has 
been carried out by the U.S. Fish and Wildlife Service, has wide 
support by a broad range of interests, ranging from farmers and 
irrigation districts to commercial fishermen to wildlife preservation 
groups to the Bonneville Power Administration, who are often at odds 
when it comes to water management issues. Yet despite Congressional 
action reauthorizing the Act and repeated requests by members of the 
Northwest Congressional Delegation for the Department within the past 
year to include funding for FRIMA, no funds were included in the FY 
2011 budget.
    Please explain why no funding was provided for FRIMA.

             Questions for Ken Salazar From Senator Johnson

    Question 1. Mr. Secretary, first I am pleased to see $8.557 million 
in your budget for Wind Cave National Park. As you know, visitation, 
tourism, and jobs related to nearby public lands annually contribute 
billions to regional economies while creating hundreds of thousands of 
private sector jobs. Beyond tourism, the protection of ecosystems 
enhances habitat for wildlife and contributes to clean air and clean 
water, providing much longer term and lasting economic growth. The 
Outdoor Industry Foundation estimates that outdoor recreation--hunting, 
fishing, hiking, skiing, and similar activities--contributes $730 
billion annually to the U.S. economy and supports 6.5 million jobs 
across the country. The Land and Water Conservation Fund (LWCF) helps 
foster these economic opportunities, helping ensure protection for 
places like Wind Cave National Park, the Missouri National Recreation 
River and many close-to-home parks in South Dakota.
    How do you plan to continue investing in programs like the LWCF, 
which are critical to our economy, job growth, and strengthening local 
communities?

            Questions for Ken Salazar From Senator Landrieu

                      WILD HORSE AND BURRO PROGRAM

Acres
    Question 1. More than 22 million acres have been removed from the 
Wild Horse and Burro Program's designated territory as authorized in 
the 1971 Wild Free Roaming Horse and Burro Act. Congress, through the 
GAO, has repeatedly asked for the BLM to account for these acres, yet, 
Congress still does not have answers. BLM is currently spending over 
$29 million a year to hold horses in short-term and long-term 
facilities once they have been removed from the designated ranges.
    When will BLM provide Congress with a detailed explanation on why 
22 million acres have been removed from the program? Why should 
Congress authorize BLM to spend $42 million to acquire new land in the 
Midwest or East as a sanctuary for excess wild horses when there are 22 
million acres originally set aside for the program that have not been 
accounted for?

Sanctuaries
    Question 2. The BLM wants to spend $42.5 million or 11 percent of 
the Land and Water Conservation Fund's budget to purchase new land in 
the Midwest or East as a sanctuary for Wild Horses and Burros that must 
be removed from the public ranges due to populations being over the 
Appropriate Management Level (AML). The BLM manages over 253 million 
acres of public Federal land. The 1971 Wild Horse and Burro Program set 
aside 53 million acres for the management of wild horses and burros. 
Currently, there are 31 million acres remaining in the program.
    With over 253 million acres available, it is not possible for the 
BLM to find 22 million acres (9 percent) suitable for wild horses and 
burros? Why not save the American taxpayer $42 million by using the 
lands already available instead of purchasing new lands?
    I know of at least one private individual who is trying to work 
with BLM to purchase private land to establish a wild horse sanctuary. 
Considering the current budget deficits are country is facing, why 
should Congress appropriate $42 million for a wild horse sanctuary when 
private individuals are willing and ready to work with BLM to establish 
a wild horse sanctuary?
    Secretary Salazar, you have stated that lands in the West are not 
suitable for a Wild Horse and Burro sanctuary, which is why your $42 
million sanctuary proposal looks to find lands in the Midwest or East. 
If lands in the West are unsuitable for wild horses, then are they also 
not unsuitable for livestock grazing? Will BLM reduce the number of 
grazing permits available on Western lands?
Treasured Herds
    Question 3. In your proposal released last fall, you propose 
establishing a few ``treasured herds'' to showcase as part of the new 
Wild Horse and Burro Program.
    What would this entail and how would they be managed differently 
from other herds throughout the West?
    Are there additional projected costs associated with a ``treasured 
herd'' versus a normal Herd Management Area?
    What kind of process would be used to designate a ``treasured 
herd''?
    How does the Secretary plan to incorporate the values of the local 
communities associated with these herds?
Management
    Question 4a. The BLM intends to strictly limit reproduction of the 
remaining free-roaming herds to approximately 3,500 foals annually to 
equal current adoption demand.
    How would limiting reproduction rates be implemented on free-
roaming animals?
    What is the projected annual cost of implementing this fertility 
control program?
    Is the 3,500 foals limited strictly to wild horses? What about 
burros?
    There is currently no known active fertility program for wild 
burros. How does BLM intend to limit reproduction in wild burro 
populations?
    How will it be decided what herds or animals will be allowed to 
reproduce?
    Question 4b. Reproduction rates are known to vary greatly, both by 
area and annual climactic conditions. Some concerns about this known 
variation include:
    How can BLM provide assurances that implementing a large-scale 
fertility control program will not ``crash'' multiple populations in 
the long-run?
    What methods does BLM use to determine if management plans such as 
the application of fertility control will not cause population 
declines?
    Have these methods been peer-reviewed and/or are supported by the 
scientific community?
    Can the BLM provide documentation, studies and/or research papers 
from independent sources of federal and/or state agencies as to the 
reliability and accuracy of these methods?
Round-up contractor
    Question 5. The BLM has conducted unprecedented roundups over the 
past year citing the fact that the program's population is way over the 
AML. It should be noted that according to the BLM's own document, the 
program has never operated at AML and has always exceeded the AML. The 
BLM uses taxpayer dollars to hire a contractor to conduct the round-up 
removals. Congress wrote specific penalties in the 1971 Wild Horse and 
Burro Act to protect these magnificent animals from being harassed, 
chased and exploited for slaughter. Yet, the BLM continues to use 
contractor, Dave Cattoor, who was convicted of hunting wild horses, to 
round up wild horses by helicopter.
    Why does the BLM use taxpayer dollars to contract with a person 
that was convicted of the very penalties Congress wrote in the Act and 
charged the BLM to enforce?
Humane Observers
    Question 6. The BLM Wild Horse and Burro Program Director explained 
to media that independent humane observers were not necessary because 
the public was welcome to observe roundups at any time. However, during 
the Calico round up, systematic steps were taken to prevent independent 
humane observers from viewing the activities and horses in holding. 
Taxpayers paid approximately $63.7 million towards the Wild Horse and 
Burro Program in FY10, and DOI is asking for a $12 million increase for 
the program in FY11, which will include further round-ups and removals.
    Do humane observers increase the cost of round-ups?
    Is there any reason why humane observers should not be entitled to 
see the totality of a round-up from start to finish?

                            OCS DEVELOPMENT

    Question 7a. MMS 5 year leasing program: In February 2009, you 
extended by six months the already extensive comment period on the 
upcoming five-year plan (2010-2015) for oil and natural gas development 
on the Outer Continental Shelf. The extended comment period has now 
been closed for over 4 months. So far no additional action has been 
taken.
    Can you provide the Committee with a firm timeline for action on 
the proposed leasing program? Can you provide any details on areas that 
will be available for leasing under this program?
    Question 7b. Also, in February 2009, when you delayed the Five-Year 
Plan process, you said it was essential to allow the American people to 
give input on the plan, and set out to convene four regional meetings 
on the issue. The Interior Department STILL has not released the number 
of Americans commenting for and against developing new areas offshore. 
Last week, however, the Wall Street Journal reported on communication 
from MMS Director Liz Birnbaum, verifying the indications that 
Americans submitted comments overwhelmingly in favor of expanded oil 
and gas development.
    Will you confirm that this is correct? How can your Department 
continue to drag its heels on an issue this important to the public, 
particularly given the potential for significant job creation by 
leasing new offshore areas?

             PROGRAMMATIC ENVIRONMENTAL IMPACT STUDY (PEIS)

    Question 8. Mr. Secretary, you have suggested that one of the 
reasons NOT to develop in federal waters offshore the Atlantic is a 
lack of good estimate on resources. Resource estimates have been based 
on old technology. However, despite companies' expressed interest in 
conducting three-dimensional seismic at their own expense, the federal 
government has failed to complete the Programmatic Environmental Impact 
Study (PEIS) necessary before seismic activity can commence.
    Can you explain why the Department of Interior has not moved 
forward on a Programmatic EIS for the Atlantic?

             Questions for Ken Salazar From Senator Sanders

    Question 1. White-Nose Syndrome is a wildlife health crisis of 
grave concern to Vermont, the larger Northeast, and the nation. Vermont 
has lost at least 95 percent of its bats since White-Nose Syndrome was 
first observed within its borders, according to a recent article (``Bad 
news for bats: Deadly white-nose syndrome still spreading'', Scientific 
American, February 20, 2010). Since the first known case occurred in 
2006 in New York, confirmed cases of White-Nose Syndrome have shown up 
in ten states: Connecticut, Massachusetts, New Hampshire, New Jersey, 
New York, Pennsylvania, Tennessee, Vermont, Virginia, and West 
Virginia. Based upon what has happened to date, this is a serious 
problem.
    Can you provide us an update on the Department's efforts to date to 
research and combat White-Nose Syndrome in bats?
    Question 2. I, along with 12 other Senators and 12 Members of the 
House of Representatives, sent a letter to the Department seeking 
fiscal year (FY) 2010 funding for researching and eliminating the 
White-Nose Syndrome which is afflicting bats in the Northeast, Mid-
Atlantic, most recently the South, and possibly elsewhere in the 
country. Congress did provide $1.9 million dollars for this for FY 
2010.
    What discrete FY 2011 funding will the Department dedicate to 
research and control of White-Nose Syndrome?

             Question for Ken Salazar From Senator Shaheen

    Question 1. Mr. Secretary, I am pleased to see your enthusiasm for 
programs like the Land and Water Conservation Fund (LWCF). As you know, 
visitation, tourism, and jobs related to nearby public lands annually 
contribute billions to regional economies while creating hundreds of 
thousands of private sector jobs. In New Hampshire, our tourism economy 
is closely tied to protected public recreation lands for hunting, 
fishing, camping, and boating. Beyond tourism, the protection of 
ecosystems enhances habitat for wildlife and contributes to clean air 
and clean water, providing much longer term and lasting economic 
growth. The Outdoor Industry Foundation estimates that outdoor 
recreation--hunting, fishing, hiking, skiing, and similar activities--
contributes $730 billion annually to the U.S. economy and supports 6.5 
million jobs across the country. LWCF helps foster these economic 
opportunities, helping ensure protection for places like Lake Umbagog 
that attract visitors to my state.
    As you may recall from a letter I sent you earlier this year, we 
have exciting landscape level protection projects in New Hampshire this 
year that need LWCF funding, including one at Umbagog National Wildlife 
Refuge. Despite overall increases for the US Fish and Wildlife Service 
budget for refuge land protection, the budget proposal for this 
important refuge falls short of the urgent need there. This 
demonstrates yet again the need for higher and more consistent levels 
of LWCF, and why I support the Chairman's efforts to increase funding 
for the LWCF overall.
    I hope you will work with me this year and next to make sure that 
LWCF is available to meet our needs at Umbagog and elsewhere in New 
Hampshire, where we are pursuing just the type of conservation 
partnerships--federal, state, local and private--that you support.
    Can you indicate what you think the future holds for landscape 
projects like the Umbagog refuge?

            Questions for Ken Salazar From Senator Murkowski

                      OIL AND GAS LEASING PROGRAMS

    Question 1. Secretary Salazar, the President made clear in his 
state of the Union address that we were going to have to make tough 
choices about new areas to drill offshore. I and many others took that 
to mean that, while most agree that oil should be a declining 
percentage of our overall energy consumption, for the sake of the 
national economy, for the sake of national security, and for the sake 
of the world's environment, the United States should produce a larger 
percentage of the oil that it consumes.
    Do you agree with this assessment?
    Question 2. Secretary Salazar, you have made a commitment to making 
sure that American taxpayers, who own the federal oil and gas resources 
in this nation, will always get a good return on their property. I 
applaud you for that general goal. In 2009, however, fewer acres drew 
leases onshore than any year in BLM's recorded history. The total 
receipts to Treasury were less than a billion dollars, versus ten 
billion dollars in the last year of the Bush administration.
    I know we can explain part of this tenfold plummet in federal 
revenue by taking the economic downturn into consideration and the 
corresponding drop in the price of oil. But that cannot come close to 
explaining a tenfold drop entirely. Is it possible that actions by the 
Department of Interior made some producers reluctant to bid very high, 
or reluctant to bid at all in some situations?
    Question 3. Secretary Salazar, the Administration's budget contains 
literally dozens of ways in which the domestic oil and natural gas 
industry is slated to be impacted. Most of them are tax increases, 
including a repeal of the credits for intangible drilling costs (the 
IDC) and percentage depletion, which I know several of my colleagues on 
the other side of the dais support preserving as necessary for upstream 
oil and natural gas to work in terms of risk and investment. DOE also 
proposes to zero out its oil and gas research budget.
    My question is whether Interior was aware that you were not going 
to be the only ones with plans to claim additional revenues from the 
oil and natural gas sector?
    Question 4. Was there coordination among the departments to assess 
the new fees, royalties, and taxes on the industry?
    Question 5. If not, are you surprised to see the long list, and is 
it worth revising?
    Question 6. Secretary Salazar, Interior's budget proposal seeks to 
impose a $4.00 per acre fee on non-producing oil and gas leases--only 
new leases--and expects to generate 8 million dollars by doing so. The 
rationale behind this is to ``provide financial incentive'' to produce 
oil and gas.
    Could you describe for me the formula for predicting that Interior 
is going to lease 2 million acres of non-producing lands next year?
    Question 7. Who would bid on them if they're not going to produce?
    Question 8. What additional financial incentive is necessary when 
oil is trading for $70 to $80 a barrel or more--in other words,will a 
$4.00 fee make a difference?
    Question 9. Is it possible to know whether a lease could be 
producing prior to exploratory drilling?
    Question 10. Is there any evidence that leaseholders are somehow 
deliberately hoarding and stockpiling oil underground and withholding 
revenues for their investors rather than producing?
    Question 11. Will this fee apply to leases from the second they are 
auctioned until they are producing, even if the producer is waiting for 
your department--or another agency--to issue a necessary permit?
    Question 12. If the leased tract is under litigation, will the 
producer be punished for obeying a court injunction to hold off on 
operations?
    Question 13. Secretary Salazar, Interior proposes to raise royalty 
rates on oil and natural gas companies from 12.5% to anywhere from 20% 
to 30%, the rationale being that certain states like Texas claim larger 
royalties than does the federal government and, therefore, why not 
bring federal policy in line with state policy.
    By this rationale, should the laws governing federal leases more 
closely resemble state laws in areas additional to royalty rates?
    Question 14. For instance, should the Texas Railroad Commission be 
put in charge of implementing Interior's leasing program, including its 
commitment to view all its decisions through the lens of climate 
change?
    Question 15. For instance, should Alaska's Department of Natural 
Resources' policies be duplicated in Interior's new onshore leasing 
reforms regulations for viewshed?
    Question 16. DOI recently reported back to Congress, as required by 
the FY2011 Appropriations bill, on their expected timeline for 
completing a PEIS for Atlantic seismic, with a final document not 
expected until April 2012. What is the process after this and when do 
you expect that seismic vessels will actually be in the Atlantic Ocean?

          a. Before seismic companies can conduct their work, do they 
        need to first obtain a permit from MMS that cannot be issued 
        until a separate environmental analysis is completed on each 
        individual application?
          b. Is modern seismic data necessary in order to have a 
        meaningful Lease Sale 220 scheduled for next year offshore 
        Virginia?
          c. Given the EIS for seismic not being completed until 2012, 
        and the subsequent environmental work needed after that to 
        issue permits, and the time needed for companies to analyze the 
        data, is it possible to have a viable lease sale offshore 
        Virginia during the current Five Year Plan?

    Question 17. Does MMS plan on conducting the Virginia lease sale 
EIS concurrently with the Atlantic seismic EIS?

          a. Does your budget request sufficient dollars to conduct 
        this environmental work, or is there a need for members of the 
        Interior/Environment Appropriations Subcommittee to direct 
        additional funds?

                         ALASKA LAND CONVEYANCE

    Question 18. Mr. Secretary I was terribly disappointed by the 38% 
cut in funding for Alaska land conveyance efforts proposed in your BLM 
budget. That is a drop from $34 million this year to just $20 million 
for FY 11.
    Back in 2004, Congress approved the Alaska land conveyance 
acceleration act that was supposed to have completed the conveyance of 
the lands that Alaska won at Statehood 51 years ago and that Alaska 
Natives won when they gave up their aboriginal land claims 39 years ago 
by last year. While the pace of conveyances have speeded up, we still 
have about 6 million acres of state lands, and about 4.8 million acres 
of Native lands pending initial conveyance and a much larger percentage 
of lands pending final survey and complete conveyance.
    This cut will probably add not just years, but decades, to how long 
it will take for final transfer of lands to Alaska and Alaska Natives.
    I understand the budgetary pressures the Department is facing, but 
the U.S. Government promised Alaska its lands when it became a state 51 
years ago, it simply is not fair to add decades to how long it is going 
to take to complete conveyance and cadastral surveys on those lands.
    Can you explain your reasoning for the reduction and if there is 
anything the Department was planning to do to offset the effects of the 
budget reduction?

                        IZEMBEK REFUGE-ROAD EIS

    Question 19. Congress in last year's Omnibus Lands bill approved a 
land exchange that will add more than 60,000 acres to the Izembek 
National wildlife Refuge on the Alaska Peninsula, provided that 206 
acres are given up to permit a one-lane emergency road to run from King 
Cove to Cold Bay, largely for medical evacuation purposes. The law 
required that an environmental impact statement be conducted to prove 
that the road could be built without damage to the environment. Your 
Department has indicated you would like up to $2 million to conduct the 
EIS, $400,000 was approved in the FY 10 budget to start it.
    I was disappointed that the Department's budget seemingly contains 
no funding to finish the EIS. The law requires the EIS to permit an 
informed decision on whether to complete the land trade.
    How do you plan to finish the EIS and meet the terms of Sect. 6402 
of PL 111-11 given this budget proposal?

                          TREASURED LANDSCAPES

    Question 20. The FY 2011 budget notes $50.9 million program 
increase to enhance operations and maintain the Nation's treasured 
landscapes.
    What was this program referred to in past budgets?
    Question 21. Can you please provide a comprehensive definition of 
the Treasured Landscapes Initiative?
    Question 22. What role did outside groups, such as the NPCA, have 
in selecting the name of Treasured Landscapes?

                           NATIONAL MONUMENTS

    Question 23. Secretary Salazar, Fox News has reported that the 
Department of the Interior was again considering a number of areas for 
potential designation as National Monuments, or for alternative 
protection, or for purchase. That report included a list of some 13 
million acres of land in the Western States.
    Did you or any of your Deputies request that this report to be 
developed?
    Question 24. Can you tell me why anyone in your Department would 
think the Department should purchase all the land along the Iditarod 
Trail or why that trail and therefore the Iditarod Race should be 
entrusted to the Department of the Interior?
    Question 25. Can you tell me if the Department considers the lands 
in Bristol Bay region or Teshekpuk Lake area of Alaska to be 
``Treasured Landscapes''?
    Question 26. Given that the list provided by Fox News was shown to 
be attachment 4, 5 and 6 to some unnamed document; would you have your 
staff provide the Committee with a copy of the report (in draft and 
final form) with all attachments as well as all communications with 
outside groups, including e-mails, that went into the development the 
report and its attachment?

                       PARK SERVICE CONSTRUCTION

    Question 27. The construction portion of the budget has decreased 
by $45 million from the FY 2010 appropriation.
    Will this decrease come solely from new construction project funds 
or will it also eliminate some maintenance projects required to reduce 
the backlog?
      national park service land and water conservation trust fund
    Question 28. The 2011 budget proposes $106.3 million for NPS land 
acquisition, an increase of $20 million above the 2010 enacted level. 
Additionally the State Conservation Assistance Grant program includes 
$50 million for State grants, an increase of $10 million above the 2010 
enacted level.
    With such an enormous maintenance backlog, shouldn't we work to 
decrease the maintenance backlog rather than increasing funding for 
land acquisition programs?
    Question 29. Won't this only exacerbate the backlog problem?

                     NORTH SLOPE SCIENCE INITIATIVE

    Question 30. Your budget talks in many places about the importance 
of using better science upon which to base decisions. I assume that is 
a basis for the $171 million in the budget for climate change 
adaptation.
    A number of years ago all of the Interior agencies that operate in 
Alaska joined with the State of Alaska, its Fish and Game Department 
and Alaska's North Slope Borough to create the North Slope Science 
Initiative to coordinate, prioritize and better fund scientific studies 
to underlie resource management decisions on Alaska's North Slope. 
Unfortunately the federal funding for NSSI, which was always donated by 
BLM, is falling, making it impossible for the initiative to do much 
meaningful research.
    When the initiative was created six years ago it was hoped to be 
funded at least $3 million with a hope for $7 million a year to go for 
a nearly dozen areas of scientific study from wildlife to hydrology, 
from permafrost and ice to climate. Last year it received less than a 
million dollars in funds scraped together from your agencies. In your 
FY 11 budget there again is not a single dedicated dollar for such 
Arctic science.
    Can you explain why the Initiative is not being funded by the 
Department, since it was a creation of DOI in the first place?

                       ALASKA WATER RESOURCES ACT

    Question 31. Back in 2007 Congress approved the Alaska Water 
Resources Act that requires the U.S. Geological Survey to conduct an 
assessment of groundwater supplies and the aquifers that supply water, 
at least to the populated Railbelt section of Alaska. The Department, I 
know, hasn't proposed any funding the past three years to implement the 
law, but I notice that your WaterSMART proposal for which you are 
seeking a $36.4 million increase, seems to focus on the exact same 
activities as required in the Alaska Water Resources Act.
    Would the Department consider using some of the funds for 
WaterSMART grants to fund the existing Alaska water studies, which need 
about $2 million to start and a total of about $8 million to fully 
complete?

                         WILD HORSES AND BURROS

    Question 32. The budget includes a significant increase in funding 
for the Wild Horse and Burro management line item combined with a $42.5 
million LWCF request to purchase a preserve in the upper mid-west or 
the east. The program budget has more than doubled since the FY 2009 
appropriations and the proposal will only move a large number of horses 
to the east. During a briefing your staff suggested the Department 
would like to acquire an additional five or six preserves in the upper 
Midwest. Basic wildlife management suggests that when you reduce herd 
numbers without change habitat dynamics or the fertility rates of the 
herd that the herd populations will rapidly grow back to fully utilize 
the range.
    What does your proposal do to change the fertility rates of the 
herds (both in the west and within the new preserves)?
    Question 33. Isn't it true that your biologists have not been able 
to reduce the number of wild ponies out at Chincoteague National 
Wildlife Refuge and believe the best they can do is maintain herd 
numbers through their efforts to remove mares to limit population 
growth?
    Question 34. If what I said above is correct, what specific steps 
will the BLM take to actually reduce the fertility rates of the wild 
horses and burros that currently populate our western states?
    Question 35. If I did my math correctly and in the end the 
Department does end up trying to purchase 7 new preserves for these 
horses, where do you expect to get the nearly $300 million it will take 
to purchase there refuges?
    Question 36. Can you tell me how much funding it will take to 
maintain and operate these 7 preserves to maintain the horses that are 
sentences to them for the remaining years of their natural life?
    Question 37. Can you help me understand how many more preserves 
will be needed, in say 10 years, to provide these old-horse preserves 
to allow the animals live out their natural lives?

                    BUREAU OF RECLAMATION AND WATER

    Question 38. The current Administration budget shows a slight 
decrease in water related project funding. However, there is currently 
a huge backlog in the funding of authorized water projects and projects 
that require investments to rehabilitate them.
    Please describe how you will prioritize the funding for the aging 
water infrastructure, as well as prioritize your limited funding for 
currently authorized projects.
    Question 39. What role has the Administration played in the NAS 
study addressing the biological opinions that have had an impact on 
water deliveries south of the delta in the central valley of 
California?
    Question 40. Please describe the actions you are undertaking to 
ensure that federal water contractors will have a reliable water supply 
this year?
    Question 41. Please describe the flexibility you have to deliver 
water south of the delta.
    Question 42. Are you aware of any impacts that decreased water 
supplies have had on employment within the central valley?
    Question 43. Are the high levels of unemployment directly related 
to decreased water deliveries south of the delta?
    Question 44. During your nomination hearing we discussed options 
that could be incorporated within Reclamation to improve your 
operational, maintenance and rehabilitation obligations due to 
decreasing budgets. At that time, you indicated you would look at new 
and creative approaches to this problem.
    What are some of these new alternative financing mechanisms and 
approaches you have initiated this last year to approach these 
challenges?
    Question 45. Last year we had asked the Administration for a 
listing of all the un-adjudicated Indian water rights claims in the 
western United States that you will be addressing over the next few 
years. However, we have not received a listing of these claims.
    Will you provide the Committee a complete listing of all these un-
adjudicated Indian water right claims within the next 60 days?
    Question 46. Also, how have you worked with OMB to secure a 
commitment for a reasonable Federal contribution to be made available 
for Indian water rights settlements?

         UNITED STATES DEPENDENCE OF FOREIGN MINERAL RESOURCES

    Question 47. Secretary Salazar the United States Geological Service 
released a report last week that our country is becoming increasingly 
dependent on foreign minerals.
    Does that report concern you?
    Question 48. When a country such as ours, with our vast mineral 
reserves, becomes beholden to other countries for the rare minerals we 
need to manufacture goods needed by our citizens, are we not going down 
the same path that is causing us such trouble with foreign oil and gas?
    Question 49. What are you going to do to make DOI federal lands 
more open and available to the extraction of the mineral wealth that 
our country needs to become more prosperous?

                               CAPE WIND

    Question 50. I've been frustrated by the lack of progress on the 
nation's first offshore wind development, commonly referred to as the 
``Cape Wind'' project. This project, which has been under development 
since 2001, has already undergone extensive environmental review and is 
now awaiting final approval. In the meantime, Europe has installed 39 
offshore wind projects in nine different countries with over 2,000 
megawatts of capacity. I was pleased then to see you commit the 
Department of the Interior to reaching a final decision on Cape Wind by 
this April.
    Will you be able to develop a mitigation agreement on this project 
to allow Cape Wind to proceed?
    Question 51. If not, in your opinion, how will a negative decision 
on the first offshore wind project in the country impact the 
development and financing of other, future offshore wind projects?
    Question 52. The National Park Service recently announced that the 
500 square mile Nantucket Sound is eligible for listing on the National 
Register of Historic Places.
    Question 53. What would a National Register of Historic Places 
listing have on development, as well as ongoing commercial activities, 
within Nantucket Sound?
    Question 54. What kind of national precedent would such a federal 
designation set?
    Question 55. Given the extensive regulatory process and the 
potential litigation that will likely follow any federal approval of an 
offshore wind project, do you have any suggestions for streamlining, 
consolidating or expediting both the approval process and the judicial 
review process so that worthy and needed projects can be licensed and 
constructed in a reasonable time frame?

               OREGON AND CALIFORNIA LANDS TIMBER PROGRAM

    Question 56. The budget proposal contains a proposed 7.2% reduction 
in timber budget for the O&C lands. But suggests at 17% reduction in 
outputs in terms of timber sales sold.
    Can you explain why the have proposed to 7% budgets cut will result 
in a 17 percent reduction in outputs?

                   USGS MAGNETIC OBSERVATORY PROPOSAL

    Question 57. U.S. Geological Survey has announced its intention to 
establish a new geomagnetism data collection center in northern Alaska.
    Why the center is being proposed, what is the need for the 
additional data the center may produce and whether such data couldn't 
already be obtained from the private sector?

                    TRANSMISSION/NATIONAL MONUMENTS

    Question 58. The Department of Interior is contemplating 14 
monument designations or expansions affecting 9 Western states and 
millions of acres.
    Has the Department analyzed the proposed designations as to whether 
they will interfere with the ability to site transmission and other 
energy facilities in the energy corridors designated pursuant to 
Section 368 of the Energy Policy Act of 2005?
    Question 59. Would the monument designations override the land use 
plan amendments approved in the Record of Decisions associated with 
those energy corridor designations?
    Question 60. Please provide the Committee with your analysis.
    Question 61. The Western states have been engaged in a renewable 
energy zone initiative, which has sought to identify major areas of 
potential renewable resources and the transmission necessary to export 
that power.
    Given the land areas that are already precluded from use in siting 
new transmission, new set asides further reduce the available options 
for siting transmission. What are the renewable and other fuel sources 
for generating electricity located within or in the vicinity of any of 
the areas being considered for designation?
    Question 62. What, if any transmission or other linear energy 
facilities are located on rights-of-way (ROWs) within the boundaries of 
the areas being considered for designation or in neighboring areas that 
might be affected by the designation?
    Question 63. Would these facilities have to be relocated?
    Question 64. How will any facilities located within the boundaries 
be affected (vegetation management on the ROWs), and what requirements 
may be imposed for those located adjacent to the areas being considered 
for protection?
    Question 65. Have you analyzed the potential impact on siting new 
transmission facilities, particularly those needed to export renewable 
resources between the various western states, including the costs of 
routing around any potential designations?
    Question 66. Please provide the Committee with your analysis.

            Questions for Ken Salazar From Senator Barrasso

                        NON-PRODUCING LEASES FEE

    Question 1. Your budget proposes a fee on non-producing oil and gas 
wells. The proposed non-producing fee ignores the fact that 
successfully bringing a lease to production takes years of research, 
investment, environmental analysis and bureaucratic-hoop jumping. In 
many cases, the federal government's restrictions and stipulations, 
along with environmental lawsuits, significantly delay bringing leases 
into production.
    Will the proposed fee be imposed while the environmental analysis 
is being conducted?
    Will the fee be imposed if the project is held up by environmental 
litigation?

                                  APDS

    Question 2. One of the biggest holdups for folks in Wyoming is the 
backlog on applications for permit to drill (APDs). The Buffalo field 
office in Wyoming has a backlog of over 2,000 permits. Businesses need 
certainty to create jobs and plan for the future. The BLM needs to make 
a decision on that application, not sit on it for 6 months, 9 months, 
or a year.
    Do you have a plan to reduce the APD backlog?

                     IMPACT ON REVENUES FOR STATES

    Question 3a. I'm deeply concerned about the impact the Department's 
policies and delayed decisions will have on lease sale revenues for 
state and local governments. The Department's new oil and natural gas 
leasing regulations, its inability to finalize Resource Management 
Plans and Environmental Impact Statements, and the decrease in acres 
offered for leasing threaten to drastically reduce revenues generated 
by lease sales.
    States, counties, and towns in Wyoming depend on lease sale 
revenues as part of their budgets. It also helps bring in much-needed 
revenues for the federal government.
    In Wyoming, revenues from oil and gas bonus bids and rental fees 
were down from $93 million in 2008 to $10 million in 2009. The revenues 
in Wyoming for 2009 are the lowest in over a decade, including in years 
when natural gas prices are lower than they are today.
    Can we expect an equally disappointing numbers in 2010?
    How can you demonstrate a commitment to continued access to public 
lands for oil and gas development?
    How many RMPs and EISs were completed in 2009?
    How does that compare to 2007 and 2008?
    What ways can the Department streamline the process to ensure these 
documents are completed on schedule?
    Question 3b. The Department's oil and gas leasing proposal calls 
for focusing leasing in areas that have already been developed.
    How do you add domestic energy production and increase revenues if 
you are leasing places that have already been tapped?

                          ABANDONED MINE LAND

    Question 4a. In 2006, Congress enacted changes to the Surface 
Mining Control and Reclamation Act. Secretary Salazar and President 
Obama supported the final compromise when you served in the Senate. 
This money is owed to Wyoming from taxes levied on coal production.
    Wyoming has devoted $93 million of AML funds to coal mine 
reclamation since enactment of the SMCRA Amendments in 2006. There is 
still work to be done.
    Does Department recognize Wyoming's ongoing cleanup efforts?
    Question 4b. The AML compromise was a bipartisan agreement achieved 
after more than a decade of negotiations. Everyone gave a little to 
reach a solution that worked for all parties.
    Why is the Department walking away from an agreement supported by 
the President and Secretary during their tenure in the Senate?
    Why should the people of Wyoming, Montana, Texas, Louisiana, the 
Crow Nation, the Hopi Nation, or the Navajo Nation ever trust the 
Administration if they break deals that they supported?

                            COAL PRODUCTION

    Question 5. Coal production supports roughly 20,000 jobs in 
Wyoming. It generates hundreds of millions of dollars in revenues 
annually for the State. Wyoming supplies 40 percent of our nation's 
coal. Without it, people can't turn on the lights or heat their homes.
    The Department recently imposed an excessively bureaucratic review 
structure for Federal Register notices. This policy threatens these 
jobs and coal production in Wyoming. The new approval process requires 
14 separate stops within the Department of Interior before a notice can 
be published. It creates unnecessary and easily avoided delays.
    Does a ``Project Scoping Notice'' really need to be seen by the 
Assistant Director, the Solicitor, the Division of Regulatory Affairs, 
the Public Affairs, the BLM Director, the Assistant Secretary, and the 
Executive Secretariat?
    What's the justification?

                                GRAZING

    Question 6. The BLM budget for Rangeland Management would only 
provide funds to renew 34% of grazing permits due this year. That does 
not begin to address the permits that are already backlogged from years 
past. This is not an acceptable proposal.
    Please provide the number of permits expiring in FY2011 for each 
state nationwide. Please include estimation of how many of those 
permits will be fully processed within FY2011 under the President's 
request, and how many of those permits will be renewed under 
appropriations language allowing for delayed NEPA review.
    Please provide the number of permits that expired in FY2009 and 
FY2010 along with the number of permits processed in each of those 
years. Please break out numbers based on how many permits were 
processed under appropriations language allowing delayed NEPA review 
and how many were renewed with complete documentation.
    Please provide the number of permits overdue for renewal (those 
remaining unprocessed and beyond the permitted deadline for renewal) in 
each state nationwide.
    Please provide the number of permits backlogged for NEPA review 
(those renewed under appropriations language with incomplete NEPA) for 
each state nationwide. Please include a projection of how many of these 
permits will be processed in FY2011 under the President's budget 
proposal.
    Please explain why the President has chosen to prioritize $83.7 
million within BLM's budget for acquisition of private lands, rather 
than investing those funds in permit renewals for ranchers whose 
businesses and land ownership relies upon the agency's adequate 
management of grazing permits.

          a. Wouldn't the agency get much greater return on its dollar, 
        in terms of acres of open space preserved, by investing in 
        grazing permit administration rather than direct land 
        acquisition?

                    BLM WILD HORSE AND BURRO PROGRAM

    Question 7. What is the length of time the Department projects is 
necessary for the Secretary's proposal for wild horse and burro 
management to create enough cost savings to cover the total cost of 
implementation?
    Please provide the projected operational funding needs for Wild 
Horse and Burro Management over the length of time necessary for the 
Secretary's proposal to create enough cost savings to cover the total 
cost of implementation.
    Please provide the projected acquisitions budget for the creation 
of wild horse preserves as envisioned by the Secretary's proposal.

          a. Please include a projected acquisitions budget under a 
        scenario in which land for all seven of the preserves 
        envisioned in the Secretary's proposal are acquired by the 
        United States government.

    Please provide the annual operations budget for wild horse 
preserves created as envisioned by the Secretary's proposal.

          a. Please include a projected annual operations budget for 
        wild horse preserves under a scenario in which all seven of the 
        preserves envisioned in the Secretary's proposal are operated 
        by the United States government.
          b. When providing operations budget information requested 
        above, please omit any possible visitor fee or other sources of 
        income that may be generated by the preserves in the future. 
        These revenue sources can only be speculated at this time.

    Please provide information on the acreage necessary for maintenance 
of seven horse preserves in the West, Midwest, South and West Coast and 
Northeast regions of the country. Please include acreage necessary for 
a single preserve in each region, and an aggregate figure for acreage 
required in each region under a scenario in which all seven preserves 
were established in a single region.
    Please provide a detailed justification of the costs associated 
with the Secretary's proposal for wild horse and burro management. 
Please include increased operational costs necessary to reach AML on 
all western ranges, the cost of acquisition of preserves, and the 
management costs of those preserves. Please do not omit the costs of 
the adoption program or fertility control research and administration. 
Please include analysis of several scenarios of preserve management--
one in which the Secretary's plan goes forward as envisioned with two 
federal horse preserves and five partner-owned and managed preserves; 
and one in which partners are not available and it becomes necessary 
for the United States to acquire and operate all seven proposed horse 
preserves. In conducting this analysis, please omit any possible 
consideration for visitor fees or other streams of revenue to horse 
preserves that are not currently available.
    Please provide documentation of the Department's assurances from 
partner groups, tribes and states that wish to acquire and manage wild 
horse and burro preserves. Please explain the Department's reason to 
believe that these groups, tribes or states are willing and able to 
establish five wild horse and burro preserves.
    Please provide detailed justification of the aspects of the 
Secretary's plan that affect wild horse and burro populations on public 
lands.

          a. Under the plan, how, specifically, would wild horse and 
        burro populations on the range be managed?
          b. What requirements will be placed on the program for 
        population control?
          c. How will these operations be funded?
          d. How will the agency protect itself from legal challenge to 
        these operations?

    Please provide a comparison of the costs of preparing a 
programmatic NEPA analysis for the Wild Horse and Burro Program with 
the cost to the United States of the past three years of lawsuits 
against the program on the basis of NEPA compliance.

                             CLIMATE CHANGE

    Question 8. A Secretarial Order was issued in October mandating all 
of the Department's bureaus to adapt and mitigate for climate change. 
The climate change initiative is allocated $171 million in the 
President's budget. Based on these initiatives, the Department intends 
to set up science centers to oversee all research and policy that can 
be related to climate change.
    How are these science centers held accountable for the implications 
of their decisions?

          a. How can the public comment?
          b. Who should stakeholders contact?

    How are the science centers going to interact with land management?

          a. Does a science center's direction over-rule local land 
        planning?
          b. How should a local land manager prioritize information 
        from a science center versus local monitoring data and planning 
        documents?

    What Department of the Interior documents govern this process? Are 
there regulations? Policy? Directives?

          a. When will the public be allowed to comment on those 
        documents?

    The Department's new direction on climate change is a sweeping 
policy that could affect every action in every office of the Department 
of Interior. It could affect any future action. It could also affect 
every past decision. We have been told that existing management plans 
can be overturned if Department scientists feel it necessary to 
introduce new information about climate change. Even if the Department 
doesn't overturn existing plans, activists will undoubtedly challenge 
them in court.
    How is the Department going to guarantee certainty for public land 
users and stakeholders?
    What is the specific threshold that requires changes to existing 
plans and permits?
    How is the Department going to shield existing plans from lawsuits 
based on the Secretarial Order?

                           LAND DESIGNATIONS

    Question 9a. A memo was released a couple of weeks ago from the 
Department of the Interior. It lays out a strategy for Presidential 
monument designations and federal land acquisitions. I appreciated the 
Secretary's comments regarding this issue at Wednesday's hearing.
    Based on the Department's position that there is no secret agenda 
and that the Department will work with states and legislators to make 
conservation decisions, will this Administration commit not to 
implement land designations or acquisition campaigns without the 
support of the affected State and its Congressional delegation?
    Question 9b. One of the deeply troubling portions of the leaked 
land strategy was the suggestion that the federal government buy up 
land in the Green River Valley of Wyoming. That would be a grave 
mistake. The Green River Valley is a shining example of cooperative 
conservation. Ranch families have been caring for their lands for 
generations, and their success is evident in valley's pristine beauty 
and abundant wildlife. There are ongoing local conservation efforts to 
preserve open space and migration corridors. These families have a 
proud tradition of conserving the place they call home. No federal 
agency could achieve the same results. The fact that acquisition was 
suggested by the Department shows a lack of understanding for these 
local Wyoming communities.
    Will this Administration commit that these families will never be 
pressured by the government to sell their land.

            Questions for Ken Salazar From Senator Brownback

    Question 1. Secretary Salazar, do you believe employees at the 
Department of the Interior should be allowed to exclude Border Patrol 
from Wilderness areas or National Parks?
    Question 2. Do you believe DOI lands along our southern border are 
serious national security threats?
    Question 3. Secretary, could you please expand on your answer to 
Chairman Bingaman's question regarding the DOI's internal working 
document that identified multiple areas under the jurisdiction of the 
Bureau of Land Management as potential candidates to become new 
national monuments, meriting special conservation status, or targets of 
land rationalization. More specifically, how did you determine this 
list? Did you receive any help from outside groups? Do any of the sites 
listed have potential for energy development?
    Question 4. Are there any ongoing efforts to open up more land 
under the jurisdiction of the DOI to allow for hunting or gun ranges?
    Question 5. What stage is the National Park Service currently at in 
promulgating rules that would seek to prohibit lead in ammunition and 
fish tackle used in national parks?

             Questions for Ken Salazar From Senator Bennett

                        MINING PERMITTING DELAYS

    Question 1. The uncertainties regarding approval of mining 
activities on public lands has contributed to decreased mineral 
exploration dollars being invested in the United States and to 
increased reliance on foreign supplies of minerals. According to Behre 
Dolbear, the U.S. ranks among the lowest of the top 25 mining nations 
in terms of time and expense for obtaining required permits for mineral 
exploration and development. As a consequence, U.S. projects face 
substantially longer lead times before generating a return on 
investment which discourages exploration and impairs the ability to 
attract the capital investment required for mine development.
    One existing and unnecessary roadblock to obtaining mine permits is 
the time it takes the Department of Interior to process certain 
administrative notices under the National Environmental Policy Act 
(NEPA) for mining operations. This ``clearance process'' for NEPA 
Federal Register notices laid out in BLM Instruction Memoranda (IM) 
2010-043 (dated Dec. 23, 2009) needlessly adds months to the permit 
process as it requires multiple layers of Departmental approval of 
notices developed by State Bureau of Land Management (BLM) offices. 
According to the IM, notices must undergo at least nine stages of 
review, none of which appear to be concurrent. (See attached chart.) 
The impacts of these delays can be significant--lost federal, state and 
local revenues, fewer jobs, and lost opportunities. One mining company 
indicated that for each month of delay the company loses over $1 
million in net present value.
    How can such a review process be justified in this economy? It 
appears to be purely bureaucratic, does not frequently result in any 
changes to the underlying Federal Register documents, wastes agency 
resources and delays shovel ready jobs.
    Why is this clearance process necessary? How have reviews by State 
BLM offices been inadequate?
    How does the Department plan to streamline this clearance process?
    At a minimum shouldn't the Department exempt more NEPA notices from 
the clearance review process, particularly those that are 
nonsubstantive and only announce availability of documents or 
initiation of scoping periods?
    How many of these reviews (all reviews, not just those for mining) 
are pending in the Department. Does the Department plan to establish 
strict timeframes for clearance reviews? Why doesn't the Department 
allow and require concurrent review of NEPA notice by departmental 
offices involved in the clearance process?

                      RENEWABLE ENERGY PERMITTING

    Question 2. Your budget request calls for a $14.2 million increase 
over fiscal 2010 levels for renewable energy as part of your ``New 
Energy Frontier'' and these funds will be sprinkled over five different 
agencies. Renewable energy companies across the West are frustrated by 
the unpredictable and incredibly slow permitting process for renewable 
energy projects.
    How do you anticipate that an increase of only $3 million for the 
Bureau of Land Management will assist in the permitting process and can 
we expect a much larger budget request in the future along with real 
policy changes to improve the BLM's permitting record?

                      PROPOSED OIL AND GAS REFORMS

    Question 3a. On January 6, 2010, the Department of the Interior 
announced new reforms to the oil and gas program. Since that time, only 
a very brief overview document has been available. I am concerned that 
at a time in which companies are uncertain about the regulatory 
environment and what changes might occur, that they have not been given 
any specific direction about what to expect, nor have they been given 
an opportunity to comment about how those changes might impact their 
companies and their ability to hire new people.
    When will the actual policies be made available to the public? Will 
the public have an opportunity to comment and have their views and 
concerns analyzed and considered before implementation?
    To what extent will the impacts of the proposed policies upon the 
companies' ability to hire new people cause you to reconsider the 
wisdom of moving ahead with major changes at this time of economic 
downturn?
    What non-federal individuals or groups were consulted about these 
new reforms prior to their announcement on January 6?
    Given the Administration's pronounced desire to focus on job 
creation, what analysis did your Department consider regarding any 
potential impact these new policies might have upon the ability of oil 
and gas companies to add jobs and hire new people, or whether the 
changed regulatory environment might cause companies to lay off 
workers? Can you please provide any specific analysis used in the 
consideration of these policies in response to these questions?
    As the Administration has expressed concern about federal budget 
deficits, what analysis was done to consider the impact these policy 
changes might have upon oil and gas revenues to the federal treasury? 
Please provide that analysis in response to this question.
    What analysis was done in considering impacts to states as a result 
of potential declines in oil and gas revenues to their budgets that 
might result from these new policies? Please provide any analysis 
considered.
    Would you be willing to set aside these new reforms, even 
temporarily, if you are not able to confidently answer--after having 
done a thorough economic analysis--that these reforms would not result 
in the loss of jobs or the loss of new jobs that might otherwise 
materialize in a more certain business environment?
    Question 3b. On February 23, 2010, BLM Utah held an oil and gas 
lease sale that offered only four parcels, with one selling, with total 
revenues from the sale amounting to only $6315.50.
    What was the total cost of holding this lease sale (total should 
include employee hours spent in preparing for the sale, as well as all 
associated administrative costs)?

             Questions for Ken Salazar From Senator Bunning

    Question 1. The U.S. Environmental Protection Agency (EPA) is 
considering a rule that would regulate coal combustion byproducts 
(CCBs) as a ``hazardous waste'' under the Resource Conservation and 
Recovery Act (RCRA) subtitle C, which could have significant 
implications for many of the bureaus and agencies within the U.S. 
Department of the Interior (DOI). Has DOI taken a position on whether 
EPA should regulate coal ash as a hazardous waste? If so, please 
explain DOI's position and why it was taken. Please provide any 
documentation, data or studies that DOI used to support its position.
    Question 2. The National Academy of Sciences and the EPA's C2P2 
program have both historically considered many applications of coal ash 
in the mine reclamation process to be beneficial uses of CCBs. DOI has 
also historically supported the use of CCBs in mine reclamation. How 
would a hazardous waste designation of CCBs impact the beneficial uses 
of CCBs in coal mining operations and reclamation including (but not 
limited to) the following:

          a. Neutralizing acid mine drainage
          b. Placement in underground mine voids
          c. Use as a soil amendment to improve soil quality and 
        productivity
          d. Use as a base material for haul and access roads
          e. Use in achieving SMCRA requirements of approximate 
        original contour
          f. Use in preventing surface disruption that would otherwise 
        result from disposal of CCBs in landfills and surface 
        impoundments.

    Question 3. In the discussion of these various uses of CCBs, please 
include any data DOI has compiled regarding the amount of CCBs used in 
each beneficial use application. Please also explain what comparative 
substitute materials would be available for use if CCBs were precluded 
due to a hazardous waste designation by EPA, including the increased 
costs of these replacement materials.
    Question 4. The Office of Surface Mining (OSM) took the lead in 
regulating the placement of CCBs in coal mines, and published an 
advanced notice of proposed rulemaking in March 2007. Does OSM still 
plan to move forward with its own rulemaking on CCBs this fiscal year? 
If EPA proceeds with a proposed rule under RCRA Subtitle C, how will 
that rule impact OSM's plans to propose a rule on the placement of CCBs 
in coal mines? Specifically, would the proposed rule delay or 
fundamentally change OSM's role in regulating CCBs at mine sites?
    Question 5. The New Madrid Seismic Zone has a great effect on 
Western Kentucky. The U.S. Geological Survey places areas in my state 
in a hazard category higher than Los Angeles or San Francisco. This 
designation affects everything from insurance rates to site decisions 
for critical facilities. However, I have heard from constituents who 
tell me this assessment is flawed. In fact, in a letter (see 
attachment)* from the U.S. Geological Survey they cite a ``very low 
seismicity in Kentucky'' and ``low hazard and risk throughout most of 
the state.'' Could you comment on this apparent discrepancy?
---------------------------------------------------------------------------
    * Letter has been retained in committee files.
---------------------------------------------------------------------------
    Question 6. There have been questions raised about border security 
in lands administered by the Department of Interior. Do you believe 
that employees at DoI should be allowed to exclude Border Patrol from 
Wilderness areas or National Parks? Do you believe that DoI lands along 
our southern border are serious national security threats?

            Questions for Ken Salazar From Senator Sessions

    Question 1. The oil and gas industry supports 9.2 million American 
jobs, so increasing access to domestic resources could provide an 
opportunity to create more jobs, generate more revenues at all levels 
of government, and provide greater energy security. Yet, the 
Administration is considering at least $400 billion in new taxes and 
fees on the oil and natural gas industry.
    In your opinion wouldn't this sharp increase in taxes wipe out 
American jobs and devastate American businesses?
    Question 2. You have said ``We need a new, comprehensive energy 
plan that takes us to the new energy frontier and secures our energy 
independence. We must embrace President Obama's vision of energy 
independence for the sake of our national, economic, and environmental 
security.'' Yet a pattern seems to be emerging when it comes to 
developing America's domestic oil and natural gas resources. It can be 
summed up in one word: Delay. Recent examples of delay include: the 
Interior Department extending the comment period for the five-year 
offshore oil and natural gas lease plan and pushing back the second 
round of oil shale research and development leases, as well as 
Virginia's governor seeking to delay the proposed lease sale off that 
state, scheduled for 2011.
    Can you please explain to me how your recent statement supports 
energy independence, while the federal government continues to lock up 
our own energy resources forcing the United States to continue to 
import from unfriendly nations?
    The extended comment period for the upcoming five-year plan (2010-
2015) for oil and natural gas development on the Outer Continental 
Shelf has now been closed for over 4 months. So far no additional 
action has been taken. Can you provide the Committee with a firm 
timeline for action on the proposed leasing program? Can you provide 
any details on areas that will be available for leasing under this 
program?
    Question 3. In November 2009, you took unilateral action to shorten 
the lease terms of an upcoming Central Gulf of Mexico lease sale. The 
shortening of lease terms does nothing to guarantee more discoveries 
but rather takes away from companies the flexibility necessary to 
operate in an extremely challenging, risky, and costly environment.
    Why would the Department of Interior change lease terms and 
jeopardize the job creation and federal revenues generated by increased 
offshore production, at a time of record budget deficits and high 
unemployment?


</pre></body></html>
